<html>
<title> - OVERSIGHT OF FEDERAL EFFORTS TO COMBAT THE SPREAD OF ILLICIT FENTANYL</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


               OVERSIGHT OF FEDERAL EFFORTS TO COMBAT 
                    THE SPREAD OF ILLICIT FENTANYL

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2019

                               __________

                           Serial No. 116-53
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov                        
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-927 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                       

                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
              Subcommittee on Oversight and Investigations

                        DIANA DeGETTE, Colorado
                                  Chair
JAN SCHAKOWSKY, Illinois             BRETT GUTHRIE, Kentucky
JOSEPH P. KENNEDY III,                 Ranking Member
    Massachusetts,Vice Chair         MICHAEL C. BURGESS, Texas
RAUL RUIZ, California                DAVID B. McKINLEY, West Virginia
ANN M. KUSTER, New Hampshire         H. MORGAN GRIFFITH, Virginia
KATHY CASTOR, Florida                SUSAN W. BROOKS, Indiana
JOHN P. SARBANES, Maryland           MARKWAYNE MULLIN, Oklahoma
PAUL TONKO, New York                 JEFF DUNCAN, South Carolina
YVETTE D. CLARKE, New York           GREG WALDEN, Oregon (ex officio)
SCOTT H. PETERS, California
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     1
    Prepared statement...........................................     3
Hon. Brett Guthrie, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     4
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     9
    Prepared statement...........................................    11
Hon. Ann Kuster, a Representative in Congress from the State of 
  New Hampshire, prepared statement..............................   100

                               Witnesses

Kemp L. Chester, Assistant Director of The National Opioids and 
  Synthetics Coordination Group White House Office of National 
  Drug Control Policy............................................    13
    Prepared statement...........................................    16
    Answers to submitted questions...............................   114
Matthew Donahue, Regional Director North and Central Americas, 
  Operation Division, Drug Enforcement Administration, U.S. 
  Department of Justice..........................................    31
    Prepared statement...........................................    33
    Answers to submitted questions...............................   122
Thomas F. Overacker, Executive Director, Office of Field 
  Operations, Customs and Border Protection, U.S. Department of 
  Homeland Security..............................................    43
    Prepared statement...........................................    45
    Answers to submitted questions...............................   137
Gary R. Barksdale, Chief Postal Inspector, U.S. Postal Service...    53
    Prepared statement...........................................    55
    Answers to submitted questions...............................   158
David A. Prince, Deputy Assistant Director, Transnational 
  Organized Crime, Homeland Security Investigations, Immigration 
  and Customs Enforcement, U.S. Department of Homeland Security..    60
    Prepared statement...........................................    62
    Answers to submitted questions...............................   165
Carol Cave, Director, Office of Enforcement and Import 
  Operations, Office of Regulatory Affairs, Food and Drug 
  Administration, U.S. Department of Health and Human Services...    66
    Prepared statement...........................................    68
    Answers to submitted questions...............................   175

                           Submitted Material

Statement of Actus Foundation ``Amanda's Way'', July 16, 2018, 
  submitted by Ms. DeGette.......................................   101
Article of International Journal of Drug Policy, by Nicholas C. 
  Peiper, et al., submitted by Ms. DeGette.......................   107

 
 OVERSIGHT OF FEDERAL EFFORTS TO COMBAT THE SPREAD OF ILLICIT FENTANYL

                              ----------                              


                         TUESDAY, JULY 16, 2019

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
the John D. Dingell Room 2123 Rayburn House Office Building, 
Hon. Diana DeGette [chairwoman of the subcommittee] presiding.
    Members present: Representatives DeGette, Schakowsky, 
Kennedy, Ruiz, Kuster, Sarbanes, Tonko, Peters, Pallone (ex 
officio), Guthrie (subcommittee ranking member), McKinley, 
Griffith, Brooks, Mullin, Duncan, and Walden (ex officio).
    Staff present: Mohammad Aslami, Counsel; Joe Banez, 
Professional Staff Member; Kevin Barstow, Chief Oversight 
Counsel; Jeffrey C. Carroll, Staff Director; Manmeet Dhindsa, 
Counsel; Tiffany Guarascio, Deputy Staff Director; Chris 
Knauer, Oversight Staff Director; Jourdan Lewis, Policy 
Analyst; Kevin McAloon, Professional Staff Member; Benjamin 
Tabor, Staff Assistant; Jennifer Barblan, Minority Chief 
Counsel, Oversight and Investigations; Mike Bloomquist, 
Minority Staff Director; Adam Buckalew, Minority Director of 
Coalitions and Deputy Chief Counsel, Health; Jordan Davis, 
Minority Senior Advisor; Brittany Havens, Minority Professional 
Staff, Oversight and Investigations; Peter Kielty, Minority 
General Counsel; Brannon Rains, Minority Legislative Clerk; and 
Alan Slobodin, Minority Chief Investigative Counsel, Oversight 
and Investigations.
    Ms. DeGette.  The Subcommittee on Oversight and 
Investigations will now come to order. Today, the Subcommittee 
on Oversight and Investigations is holding a hearing entitled 
``Oversight of Federal Efforts to Combat the Spread of Illicit 
Fentanyl.''
    The purpose of today's hearing is to examine the increasing 
threat posed by fentanyl and the Federal Government's 
coordination and response.
    The Chair now recognizes herself for purposes of an opening 
statement.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Today, we are once again here to discuss the opioid crisis, 
an epidemic that this country has been battling for years. 
Previously, this committee has taken numerous actions to 
investigate the origins and elements of the crisis and help 
bring relief to those who are suffering.
    Today's hearing will examine the growing threat of 
synthetic opioids, which experts have called the third wave of 
the opioid epidemic.
    Our communities have already been ravaged by prescription 
opioids and then heroin. Now, unfortunately, we are seeing 
significant increases in overdose deaths involving synthetic 
opioids like fentanyl, including in my home state of Colorado.
    Fentanyl is extremely dangerous. It is 50 times more 
powerful than heroin, 100 times more powerful than morphine, 
and it is responsible for a number of growing overdose deaths 
in America.
    Fentanyl is also cheap and it's easy to produce, giving a 
high return for those who seek to profit from the destruction 
that it causes. Fentanyl can be used on its own or can be mixed 
with other drugs.
    Alarmingly, even amateur chemists can produce this highly 
dangerous drug with minimal resources and experience. It is 
often made overseas, likely in China, then shipped either 
directly to users in the United States or through 
intermediaries in other countries like Mexico.
    It can be bought anonymously on the dark web, and because 
it is so potent, small but deadly quantities of the drug can be 
shipped in packages via the U.S. mail or in private consignment 
carriers.
    Today, we have before us six agencies who play important 
roles in fighting the proliferation of fentanyl. Each is 
responsible for a piece of this effort, from guarding the 
border, to taking down drug trafficking organizations, to 
protecting the legitimate drug supply.
    These agencies will provide us with their assessment of how 
we got here, where the fentanyl threat stands right now, and 
how it has changed in recent months.
    And I want to thank each one of our witnesses for coming 
today.
    The purpose is to examine the state of fentanyl, but also 
our government's response to it. The threat is serious and 
evolving, and our response must be equally committed and 
adaptable.
    These agencies have experience enforcing our nation's drug 
laws, gathering intelligence against traffickers, and arresting 
powerful criminals, and we are thankful for their efforts.
    But fentanyl represents a unique problem, so these agencies 
need to develop new ways of attacking it. Because we have seen 
the opioid crisis evolve and take different forms, we also need 
to anticipate how fentanyl trends are likely to continue to 
change.
    I am interested to hear all of our witnesses' perspectives 
on this and how we can get ahead of the evolving threat so we 
are not caught flat-footed like we have been before, 
unfortunately.
    I am struck by the diverse missions of this panel. It is 
not every day that we have a hearing with the U.S. Postal 
Service and the DEA on the same panel.
    Every one of these witnesses represents just a piece of the 
puzzle, which means that we cannot succeed unless everybody 
comes together. The crisis is going to require a massive 
coordinated effort to overcome.
    We, frankly, need a national strategy on fentanyl response, 
and I don't mean just a white paper document or a task force 
report.
    I mean we need a coherent practical plan for how we are 
going to beat this problem. For example, the Office of National 
Drug Control Policy is supposed to formulate a strategy, bring 
all of the agencies together, and see to it that the strategy 
is implemented effectively.
    Are you coordinating the efforts of these agencies, and if 
so, how? Your mission is now more important than ever, so we 
will be looking to you for leadership and vision.
    DEA, you are on the front lines and often develop important 
leads for targeting drugs. Is that information being regularly 
shared with CBP so that it can adequately target fentanyl 
shipments when they come into the U.S.?
    FDA, suddenly, you are in the middle of this fight because 
fentanyl is increasingly being mixed with other drugs, 
including counterfeit prescription drugs.
    How are you coordinating with law enforcement to protect 
the drug supply?
    These are just a few of the questions we will explore 
today. If we are going to solve this problem, we need better 
cooperation across agencies, and we need to think differently 
than we have on past drug epidemics.
    Finally, this hearing is just one piece of oversight. This 
subcommittee will stay on this issue and ensure progress is 
being made so, as so frequently happens, unfortunately, we are 
not back next year talking about the same problems.
    Again, I thank the witnesses for their service on this 
critical issue and for coming here today, all in one panel.
    [The prepared statement of Ms. DeGette follows:]

                Prepared Statement of Hon. Diana DeGette

    Today, we are here once again to discuss the opioid crisis, 
an epidemic this country has been battling for years.
    Previously, this Committee has taken numerous actions to 
investigate the origins and elements of the crisis and help 
bring relief to those who are suffering.
    Today's hearing will examine the growing threat of 
synthetic opioids, which experts have called the ``third wave" 
of the opioid epidemic.
    Our communities have already been ravaged by prescription 
opioids and then heroin. Now, we are seeing significant 
increases in overdose deaths involving synthetic opioids such 
as fentanyl, including in my home state of Colorado.
    Fentanyl is exceedingly dangerous. It is 50 times more 
powerful than heroin, 100 times more powerful than morphine, 
and it is responsible for a growing amount of overdose deaths 
in America.
    Fentanyl is also cheap and easy to produce, giving a high 
return for those who seek to profit from the destruction it 
causes. Fentanyl can be used on its own or can be mixed with 
other drugs. Alarmingly, even amateur chemists can produce this 
highly dangerous drug with minimal resources and expertise.
    It is often made overseas, likely in China, then shipped 
either directly to users in the United States or through 
intermediaries in other countries such as Mexico.
    It can be bought anonymously on the Dark Web, and because 
it is so potent, small but deadly quantities of the drug can be 
shipped in packages via the U.S. Mail or private consignment 
carriers.
    Today, we have before us six agencies who play important 
roles in fighting the proliferation of fentanyl. Each of them 
is responsible for a piece of this effort--from guarding the 
border, to taking down drug trafficking organizations, to 
protecting the legitimate drug supply.
    These agencies will provide us with their assessment of how 
we got here, where the fentanyl threat stands now, and how it 
has changed in recent months.
    The purpose of today's hearing is to examine the state of 
fentanyl, but also our government's response to it. The threat 
is serious and evolving, and our response must be equally 
committed and adaptable.
    These agencies have experience enforcing our nation's drug 
laws, gathering intelligence against traffickers, and arresting 
powerful criminals. And we are thankful for their efforts. But 
fentanyl represents a unique problem, so these agencies need to 
develop new ways of attacking it.
    Because we have seen the opioid crisis evolve and take 
different forms, we also need to anticipate how fentanyl trends 
are likely to continue to change. I am interested to hear these 
witnesses' perspectives on how we can get ahead of this 
evolving threat, so we are not caught flat-footed.
    As I look at the witness panel, I am struck by their 
diverse missions. It is not every day that we have a hearing 
with the U.S. Postal Service and the DEA on the same witness 
panel.
    Each of you represents only a piece of this puzzle, which 
means we cannot succeed unless all of you come together. This 
crisis is going to require a massive, coordinated effort to 
overcome.
    We need a national strategy on our fentanyl response. And I 
don't just mean a white paper document or a task force report. 
I mean we need a coherent, practical plan for how we are going 
to beat this problem.
    For example, the Office of National Drug Control Policy 
(ONDCP) is supposed to formulate a strategy, bring all the 
agencies together, and see to it that the strategy is 
implemented effectively. Are you coordinating the efforts of 
these agencies, and if so, how? Your mission is now more 
important than ever, so we will be looking to you for 
leadership and vision.
    DEA, you are on the front lines and often develop important 
leads for targeting drugs. Is that information being regularly 
shared with CBP so it can adequately target fentanyl shipments 
when they come into the U.S.?
    FDA, you are suddenly in the middle of this fight because 
fentanyl is increasingly being mixed with other drugs, 
including counterfeit prescription drugs. How are you 
coordinating with law enforcement to protect the drug supply?
    These are just a few of the questions we will explore 
today. If we are going to solve this problem, we need better 
cooperation across agencies, and we need to think differently 
than we have on past drug epidemics.
    Finally, this hearing is just one piece of our oversight. 
This Subcommittee will stay on this issue and ensure progress 
is being made so that we are not back here again next year 
talking about the same problems.
    I thank the witnesses for their service on this critical 
issue, and for being here today.

    Ms. DeGette. And now I recognize the ranking member of the 
subcommittee, Mr. Guthrie, for five minutes for an opening 
statement.

 OPENING STATEMENT OF HON. BRETT GUTHRIE, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEATH OF KENTUCKY

    Mr. Guthrie. Thank you, Chair DeGette, for holding this 
important hearing.
    The Energy and Commerce Committee has been steadfast in its 
efforts to help combat the opioid crisis with both 
investigations and legislation.
    Whether it was the committee's investigations into opioid 
distributors, patient brokering, or major opioid manufacturers, 
we have continued to ask questions and demand answers for the 
American people.
    When it comes to legislation, this committee led the way on 
passage of the 21st Century CURES Act, the Comprehensive 
Addiction and Recovery Act, and the SUPPORT Act for patients in 
communities.
    I was proud to work with these three landmark bills which 
are advancing treatment and recovery initiatives, improving 
prevention, protecting communities, and bolstering our efforts 
to fight deadly illicit synthetic drugs like fentanyl.
    Fentanyl is a synthetic opioid that is 80 to 100 times 
stronger than morphine and 50 times more potent than heroin. 
For many years, pharmaceutical fentanyl has been utilized as a 
powerful pain medicine to treat severe pain such as advanced 
cancer pain commonly used in the form of a patch on the skin or 
a lollipop.
    But pharmaceutical fentanyl is not why we are here today. 
We are here today because of concerns over illicit or illegally 
manufactured fentanyl. The fentanyl crisis is particularly 
dangerous because of its high potency, and the small amount 
required to potentially cause an overdose.
    It has become a powerful additive to drugs such as heroin, 
cocaine, or counterfeit pills with or without the user's 
knowledge.
    According to the CDC, in 2017 there were more than 28,000 
deaths involving synthetic opioids in the United States, which 
is more deaths than from any other type of opioid.
    Further, overdose death rates from synthetic opioids 
increased all across all demographics, county urbanization 
levels, and numerous states.
    A little bit of fentanyl goes a long way, which makes it 
harder for law enforcement to track where and how fentanyl is 
being purchased. Fentanyl can be purchased on the internet both 
in open source and on the dark web, and can be purchased pseudo 
anonymously using bitcoin or crypto currency.
    In addition to being smuggled across our borders, fentanyl 
can be mailed in small quantities through the Postal Service or 
express consignment carriers and, therefore, has a higher 
likelihood of coming into the United States undetected.
    These circumstances require a much different approach to 
intelligence, interdiction, and law enforcement compared to 
methods that may be better suited for what might be considered 
a more common drug smuggling operation.
    The threat is real, and it has been growing over the past 
few years. According to Customs and Border Protection data, in 
fiscal year 2015, 70 pounds of fentanyl were seized in the 
United States.
    In comparison, for fiscal year 2018, more than 2,000 pounds 
of fentanyl was seized. Further, for fiscal year 2019 to date, 
there have been 17,003 pounds of fentanyl seized, which is 
enough fentanyl for more than 600 million lethal doses of 
fentanyl, and we still have four more months of data to count 
before we know the total for this year.
    I want to acknowledge some of the efforts and 
accomplishments of this administration, including but not 
limited to HHS establishing an interdepartmental substance use 
disorder coordinating committee, China pledging to add fentanyl 
to its list of controlled substances, increasing shipment 
tracking responsibilities and coordination among multiple 
entities, and disruption efforts which has taken down an entire 
online black market.
    While we are already seeing new tools and resources 
provided and utilized as a result of this committee and the 
administration's work, the threat still exists, and our work is 
not done.
    I want to thank all the witnesses for being here today. I 
look forward to hearing from all of you about successes we have 
had in combating our nation's fentanyl threat but also how the 
threat has changed, what challenges remain, and what more we in 
Congress can do to be partners in this fight.
    I yield back.
    [The prepared statement of Mr. Guthrie follows:]

                Prepared Statement of Hon. Brett Guthrie

    Thank you, Chair DeGette, for holding this important 
hearing.
    The Energy and Commerce Committee has been steadfast in its 
efforts to help combat the opioid crisis, with both 
investigations and legislation. Whether it was the Committee's 
investigations into opioid distributors, patient brokering, or 
the major opioid manufacturers--we've continued to ask 
questions and demand answers for the American public.
    When it comes to legislation, this Committee lead the way 
on passage of the 21st Century Cures Act, the Comprehensive 
Addiction and Recovery Act, and the SUPPORT for Patients and 
Communities Act. I was proud to work on these three landmark 
bills, which are advancing treatment and recovery initiatives, 
improving prevention, protecting communities, and bolstering 
our efforts to fight deadly illicit synthetic drugs like 
fentanyl.
    Fentanyl is a synthetic opioid that is 80 to 100 times 
stronger than morphine and 50 times more potent than heroin. 
For many years, pharmaceutical fentanyl has been utilized as a 
powerful pain medicine to treat severe pain, such as advanced 
cancer pain, commonly used in the form of a patch on the skin 
or a ``lollipop." But pharmaceutical fentanyl is not why we're 
here today--we're here today because of concerns over illicit, 
or illegally manufactured, fentanyl.
    The fentanyl crisis is particularly dangerous because of 
its high potency and the small amount required to potentially 
cause an overdose. It has become a powerful additive to drugs 
such as heroin, cocaine, or counterfeit pills--with or without 
the user's knowledge. According to the CDC, in 2017 there were 
more than 28,000 deaths involving synthetic opioids in the 
United States--which is more deaths than from any other type of 
opioid. Further, overdose death rates from synthetic opioids 
increased across all demographics, county urbanization levels, 
and numerous states.
    A little bit of fentanyl goes a long way--which makes it 
harder for law enforcement to track where and how fentanyl is 
being purchased. Fentanyl can be purchased on the internet-both 
in the open source and on the dark web-and can be purchased 
pseudo-anonymously using bitcoin or crypto currency.
    In addition to being smuggled across our borders, fentanyl 
can be mailed in small quantities through the postal service or 
express consignment carriers, and therefore has a higher 
likelihood of coming into the United States undetected. These 
circumstances require a much different approach to 
intelligence, interdiction, and law enforcement compared to 
methods that may be better suited for what might be considered 
a more common drug smuggling operation.
    The threat is real and has been growing over the past few 
years. According to Customs and Border Protection data, in 
fiscal year 2015, 70 pounds of fentanyl were seized in the 
United States. In comparison, for fiscal year 2018, more than 
2,000 pounds of fentanyl were seized. Further, for fiscal year 
2019 to date, there have been 1,703 pounds of fentanyl seized. 
That is enough fentanyl for more than 600 million lethal doses 
of fentanyl, and we still have four more months of data to 
account for before we will know the total for this year.
    I want to acknowledge some of the efforts and 
accomplishments of this Administration, including but not 
limited to HHS establishing an interdepartmental substance use 
disorder coordinating committee; China pledging to add fentanyl 
to its list of controlled substances; increasing shipment-
tracking responsibilities and coordination among multiple 
entities; and disruption efforts such as taking down an entire 
online black market. While we are already seeing new tools and 
resources provided and utilized as a result of this Committee 
and the Administration's work--the threat still exists, and our 
work is not done.
    I want to thank all of the witnesses for being here today. 
I look forward to hearing from all of you about successes we 
have had in combatting our nation's fentanyl threat, but also 
how the threat has changed, what challenges remain, and what 
more we, in Congress, can do to be partners in this fight.

    Ms. DeGette. The Chair now recognizes the chairman of the 
full committee, Mr. Pallone, for five minutes for purposes of 
an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    This committee has held many hearings on the opioid crisis 
over the last several years, and with each hearing it seems the 
challenge to combat the crisis grows even more daunting.
    While opioid prescribing rates appears to have gone done, 
overdose deaths continue to climb. Communities all around the 
country are still suffering from this epidemic, now largely at 
the hands of heroin, increasingly fentanyl.
    Fentanyl is a deadly synthetic drug that is 50 times more 
powerful than heroin. Because it's relatively easy to make and 
so potent, it is tragically leading to large increases in 
overdose deaths.
    We have all heard the terrible numbers that tell the story. 
In 2017, there were over 47,000 opioid overdose deaths. Twenty-
eight thousand of those deaths involve synthetic opioids such 
as fentanyl.
    My home state of New Jersey, for example, has seen a ten-
fold increase in deaths involving fentanyl in the last several 
years, and fentanyl represents the third wave, as the 
chairwoman said, in the opioid crisis.
    After the country was inundated with prescription opioids, 
prescribing rates when down. But many of those who were already 
addicted then turned to heroin, and now the trend is shifting 
towards synthetic opioids like fentanyl, which pose a unique 
threat.
    These drugs are manufactured overseas in countries like 
China, oftentimes in clandestine labs. These drugs are then 
shipped into the U.S. often in small quantities that are 
difficult to detect.
    And to make matters worse, we are now seeing fentanyl 
increasingly mixed into other drugs like cocaine, 
methamphetamine, and even counterfeit prescription drugs like 
Oxycodone.
    This means that many unsuspecting people are dying at the 
hands of fentanyl when they didn't even realize they were 
taking it, and this drug represents an unprecedented threat to 
the U.S. and we have to do everything we can to stop this flow 
into our communities.
    Today, we are hearing from the key law enforcement and 
regulatory agencies on the front line of this battle. Each 
agency plays a critical part and has decades of experience in 
this fight.
    The problem, however, is that fentanyl is unlike any drug 
crisis we have faced before. All of these factors point to one 
conclusion. We have to think differently about how to counter 
the spread of fentanyl. The old approaches simply will not 
suffice.
    Finally, we have repeatedly heard from experts that we 
cannot arrest our way out of the opioid crisis and fentanyl is 
no different. Evidence-based treatment is the best hope for 
those suffering from addiction and we must support programs 
that provide that help.
    So today's hearing focuses on how to stop the flow in 
fentanyl but this is by no means the end of the conversation. I 
am committed to providing Americans suffering from opioid use 
disorder access to the quality treatment they need, and this 
committee will continue to shine a spotlight on this crisis to 
help identify solutions including in the treatment and public 
health arenas.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    This Committee has held many hearings on the opioid crisis 
over the last several years, and with each hearing it seems the 
challenge to combat the crisis grows even more daunting.
    While opioid prescribing rates appear to have gone down, 
overdose deaths continue to climb. Communities all around the 
country are still suffering from this epidemic, now largely at 
the hands of heroin and increasingly, fentanyl.
    Fentanyl is a deadly synthetic drug that is 50 times more 
powerful than heroin. Because it is relatively easy to make and 
so potent, it is tragically leading to large increases in 
overdose deaths.
    We have all heard the terrible numbers that tell this 
story. In 2017, there were over 47,000 opioid overdose deaths, 
28,000 of those deaths involved synthetic opioids such as 
fentanyl. My home state of New Jersey, for example, has seen a 
tenfold increase in deaths involving fentanyl in the last 
several years.
    Fentanyl represents the third "wave" in the opioid crisis. 
After the country was inundated with prescription opioids, 
prescribing rates went down--but many of those who were already 
addicted then turned to heroin.
    Now the trend is shifting toward synthetic opioids like 
fentanyl, which poses a unique threat. These drugs are 
manufactured overseas in countries like China, oftentimes in 
clandestine labs. These drugs are then shipped into the United 
States, often in small quantities that are difficult to detect.
    To make matters worse, we are now seeing fentanyl 
increasingly mixed into other drugs like cocaine, 
methamphetamine, and even counterfeit prescription drugs like 
oxycodone. This means that many unsuspecting people are dying 
at the hands of fentanyl when they didn't even realize they 
were taking it.
    This drug represents an unprecedented threat to the United 
States--and we must do everything we can to stop its flow into 
our communities.
    Today we will hear from the key law enforcement and 
regulatory agencies on the front lines of this battle. Each 
agency plays a critical part and has decades of experience in 
this fight. The problem, however, is that fentanyl is unlike 
any drug crisis we have faced before.
    Just about everything about this threat is new: how easily 
it can be produced and sold, where it can be made, how it can 
be trafficked into our country, how difficult it is to detect--
and of course, how deadly it is.
    All of these factors point to one conclusion--we have to 
think differently about how to counter the spread of fentanyl. 
The old approaches simply will not suffice.
    We need to hear from the agencies about how they are 
adapting to this new and evolving threat, how they are thinking 
of new ways to attack this problem, and especially, how they 
are collaborating.
    The fentanyl threat is so unprecedented, and so 
challenging, that no single agency can tackle it on its own. 
They must all work together.
    You simply cannot let turf wars or the competition for 
bringing cases stop you from cooperating with one another to 
help solve this problem. The stakes are too high.
    Finally, we have repeatedly heard from experts that we 
cannot arrest our way out of the opioid crisis, and fentanyl is 
no different. Evidence-based treatment is the best hope for 
those suffering from addiction, and we must support programs 
that provide that help.
    Today's hearing focuses on how to stop the flow of 
fentanyl, but this is by no means the end of the conversation. 
I am committed to providing Americans suffering from opioid use 
disorder access to the quality treatment they need. This 
Committee will continue to shine a spotlight on this crisis to 
help identify solutions, including in the treatment and public 
health arenas.
    I yield back.

    Mr. Pallone.I have about two minutes left, and I'd like to 
yield that now to the gentlewoman from New Hampshire, Ms. 
Kuster.
    Ms. Kuster. Thank you, Chairman Pallone.
    We have seen the opioid crisis evolve and take many 
different forms, as you described. But no community in this 
country has been spared. New England and New Hampshire, in 
particular, have been devastated by this crisis.
    In my home state, while we have seen the rate of 
prescription opioid and heroin overdose deaths decline, the 
rate of fentanyl--involved overdoses has not subsided.
    With the help of a coordinated approach at the local level, 
the hub and spoke model ensures that every Granite Stater has 
nearby access to treatment and recovery services.
    But this does not solve the supply problem. We know all too 
well that newer, stronger, and deadlier analogs of fentanyl 
continue to proliferate and challenge our ability to prevent 
needless premature deaths.
    I look forward to the hearing. I look forward to your 
testimony and I thank the gentlewoman chairing this 
subcommittee and the chair of the committee for their attention 
to this crisis.
    Thank you. I yield back.
    Mr. Pallone. Thank you. I have about a minute. I don't know 
if anybody else wants the time. If not, I will yield back, 
Madam Chair.
    Ms. DeGette. The gentleman yields back.
    The Chair now recognizes the ranking member of the full 
committee, Mr. Walden, for five minutes for purposes of an 
opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Madam Chair, and thank you for 
holding this really, really important hearing on getting 
illicit fentanyl off our streets.
    As you've heard, fentanyl is so deadly a piece of it, the 
size of a few grains of salt, can kill you. It reportedly led 
to 49 deaths in Oregon in 2017. So, ridding our communities of 
fentanyl is a key piece of combating the opioid crisis in 
Oregon and across the country.
    Illicit fentanyl is a tremendously difficult and dynamic 
problem. It is hard to detect and is highly potent and 
lucrative enough to be sent in small envelopes or packages, and 
while the heroin market was monopolized by large criminal 
groups, this fentanyl wave--it is harder to police.
    It is coming almost entirely from the black market on the 
dark web and clandestine labs in China and Mexico with many 
mid-level and small operators in addition to drug smuggling 
operations like the cartels.
    This subcommittee last held an oversight hearing on illicit 
fentanyl back in March of 2017. The need for fentanyl focused 
action was clear then.
    Two years later, there are numerous significant 
accomplishments. Last year the committee worked in a bipartisan 
way to enact the SUPPORT Act to bolster the fight against 
opioids such as fentanyl. This law has helped provide advanced 
electronic data of international mail shipments to help target 
and intercept illicit fentanyl.
    This act also provided the FDA with a new tool for 
deterring imports of illicit fentanyl. As you'll recall, Dr. 
Burgess went up to a mail distribution facility in New Jersey 
and learned a lot and brought that back to us.
    The Trump administration has spurred improved actions in 
the fentanyl fight. Our nation is getting at least some 
improved level of cooperation from the Chinese government on 
class-based scheduling, which helps remove an incentive for 
traffickers to introduce new substances in the fentanyl family 
for the purpose of evading controls.
    President Trump deserves credit for moving this bold 
proposal based on the longstanding work of the White House 
Office on National Drug Control Policy, the DEA, and the State 
Department.
    President Xi of China deserves some credit for agreeing to 
a commitment to crack down on fentanyl as a class. We'd like to 
see more there.
    While it's too soon to assess the impact, early indications 
are at least encouraging. And since February of 2018, DEA has 
imposed emergency scheduling of fentanyl-related substances, 
but we need to work with DEA and other federal agencies to find 
the best approach to make this scheduling permanent.
    The Stop Importation and Trafficking of Synthetic Analogs, 
or SITSA, Act, which would have given law enforcement 
additional tools they need to get illicit drugs such as 
fentanyl off our streets without compromising important public 
health and research protections, that was included in our 
House-passed version of the SUPPORT Act but, sadly, was not 
included in the final package that became law.
    Mr. Katko of New York, he sponsored this legislation. It 
would be a good place to start again and we should make it law.
    On July of 2017, the Department of Justice announced the 
seizure of AlphaBay. That's the largest criminal marketplace on 
the dark web and a major source of fentanyl linked to overdose 
deaths.
    The AlphaBay takedown was an international operation led by 
the U.S. Both DEA and CBP recently made the largest seizures of 
fentanyl in U.S. history and we thank you for that. Federal 
agents working with local police seized 50 kilos of fentanyl 
precursor in 2017.
    For the first time the Justice Department announced 
indictments of Chinese nationals for conspiracies to distribute 
large quantities of fentanyl and fentanyl analogs.
    May of '19, a dark net drug dealer was indicted for selling 
fentanyl online, thanks to Homeland Security's investigations, 
a year-long nationwide undercover action, and under agreement 
with the U.S. Postal Service, China Post is providing advanced 
electronic data on parcels mailed to the U.S.
    FDA and CBP signed an agreement in April of 2019 to 
maximize inspection detection capabilities to products such as 
fentanyl from entering the United States.
    So, we salute these important federal workers and agencies 
for their work. But we know big challenges remain. More work is 
needed to get better cooperation from Mexico's law enforcement 
authorities.
    We need to remain vigilant with China on its fentanyl 
commitment. Much more needs to be done to collect better data 
on fentanyl trafficking and to improve data sharing and we want 
to hear more on strategy to disrupt fentanyl trafficking.
    We will be asking questions how we can strengthen our 
efforts on what this committee can provide. The SUPPORT Act was 
a great start, but it is not enough.
    And Madam Chair, I would remind you we posted our final 
oversight investigations report on the committee's Web site and 
sent everybody a letter at the beginning of the year.
    There were some important recommendations there I hope we 
can eventually get to.
    Before I conclude, I want to take a moment to recognize 
Michael Gray. He is father of Amanda Beatrice Rose Gray. Amanda 
died of an overdose of pure fentanyl in January of 2018--pure 
fentanyl.
    Michael has been a tireless advocate fighting against the 
opioid epidemic and fentanyl. His efforts informed our work in 
the last Congress. He was incredibly helpful in that, and let 
us remember as the face of this crisis his daughter, and we 
thank you for being here and we thank you for your work.
    Madam Chair, in conclusion, the Actus Foundation--we have a 
letter we would like entered into the record that we previewed 
with you.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Chair DeGette, thank you for holding this hearing on 
getting illicit fentanyl off our streets.
    Fentanyl is so deadly that a piece the size of a few grains 
of salt can kill you, and reportedly led to 49 deaths in Oregon 
in 2017. Ridding our communities of fentanyl is a key piece of 
combating the opioid crisis in Oregon and across the country.
    Illicit fentanyl is a tremendously difficult and dynamic 
problem. It is hard to detect, highly potent, and lucrative 
enough to be sent in small envelopes or packages. While the 
heroin market was monopolized by large criminal groups, this 
fentanyl wave is harder to police. It is coming almost entirely 
from the black market on the dark web and clandestine labs in 
China and Mexico with many mid-level and small operators, in 
addition to drug smuggling operations like the cartels.
    This Subcommittee last held an oversight hearing on illicit 
fentanyl in March 2017. The need then for fentanyl-focused 
action was clear.
    Two years later, there are numerous significant 
accomplishments.
    Last year, this Committee worked in a bipartisan way to 
enact the SUPPORT Act to bolster the fight against opioids such 
as fentanyl. This law helped provide advance electronic data of 
international mail shipments to help target and intercept 
illicit fentanyl. This Act also provided the FDA with a new 
tool for deterring imports of illicit fentanyl.
    The Trump Administration has spurred important actions in 
the fentanyl fight. Our nation is getting cooperation from 
China on class-based scheduling, which helps remove an 
incentive for traffickers to introduce new substances in the 
fentanyl family for the purpose of evading controls. President 
Trump deserves credit for moving this bold proposal, based on 
the longstanding work of the White House Office on National 
Drug Control Policy, the DEA, and the State Department. 
President Xi of China deserves credit for agreeing to a 
commitment to crack down on fentanyl as a class. While it is 
too soon to assess the impact, early indications seem 
encouraging.
    Since February 2018, DEA has imposed emergency scheduling 
of fentanyl-related substances. We need to work with DEA and 
other federal agencies to find the best approach to make this 
scheduling permanent. The Stop the Importation & Trafficking of 
Synthetic Analogues (SITSA) Act, which would have given law 
enforcement additional tools they need to help get illicit 
synthetic drugs, like fentanyl, off our streets without 
compromising important public health and research protections 
was included in the House-passed version of the SUPPORT Act, 
but ultimately not included in the final package that became 
law. Mr. Katko's legislation is a good place to start.
    In July 2017, the Department of Justice announced the 
seizure of AlphaBay, the largest criminal marketplace on the 
dark web, and a major source of fentanyl linked to overdose 
deaths. The AlphaBay takedown was an international operation 
led by the U.S.
    Both DEA and CBP recently made the largest seizures of 
fentanyl in U.S. history. Federal agents working with local 
police seized 50 kilos of a fentanyl precursor in May 2017, 
apparently one of the largest, if not the largest, seizure of a 
precursor in the U.S.
    For the first time, the Justice Department announced 
indictments of Chinese nationals for conspiracies to distribute 
large quantities of fentanyl and fentanyl analogs.
    In May 2019, a darknet drug dealer was indicted for selling 
fentanyl online, thanks to Homeland Security Investigations' 
yearlong nationwide undercover actions to target vendors of 
illicit goods on the dark web.
    Under an agreement with the U.S. Postal Service, China Post 
is providing advanced electronic data on parcels mailed to the 
U.S.
    FDA and CBP signed an agreement in April 2019 to maximize 
inspection and detection capabilities to products such as 
fentanyl from entering the U.S.
    We salute the federal agencies for this work, but big 
challenges remain. More work is needed to get better 
cooperation from Mexico's law enforcement authorities. We need 
to remain vigilant with China on its fentanyl commitment. Much 
more needs to be done to collect better data on fentanyl 
trafficking and to improve data-sharing. We want to hear more 
on a strategy to disrupt fentanyl trafficking. We will be 
asking questions on how we can strengthen our efforts, and what 
help this Committee can provide.
    The SUPPORT Act was a great start. Let's continue our 
bipartisan legislative efforts to combat this crisis.
    I look forward to the testimony and thank our witnesses for 
being here today.

    Ms. DeGette. Without objection, and I would add my thanks 
to you, Mr. Gray, for all of your tireless work.
    Mr. Walden. Thank you, Madam Chair.
    Ms. DeGette. The gentleman yields back, and I now ask 
unanimous consent that the Members' written opening statements 
be made part of the record.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. I would now like to introduce our panel of 
witnesses for today's hearing.
    Mr. Kemp L. Chester, Assistant Director of the National 
Opioids and Synthetics Coordination Group, the White House 
Office of National Drug Control Policy. Welcome.
    Mr. Matthew Donahue, Regional Director, North and Central 
Americas Operation Division, Drug Enforcement Administration at 
the U.S. Department of Justice.
    Mr. Thomas F. Overacker, Executive Director, Office of 
Field Operations, Custom and Border Protection at the U.S. 
Department of Homeland Security.
    Mr. Gary R. Barksdale, Chief Postal Inspector at the U.S. 
Postal Service,
    Mr. David A. Prince, Deputy Assistant Director, 
Transnational Organized Crime, Homeland Security Investigation, 
Immigration and Customs Enforcement at the U.S. Department of 
Homeland Security.
    Carol Cave, Director of the Office of Enforcement and 
Import Operations, Office of Regulatory Affairs, Food and Drug 
Administration at the Department of Health and Human Services.
    Thank you all for appearing in front of the subcommittee 
today. You are aware the committee is holding an investigative 
hearing and, when doing so, has had the practice of taking 
testimony under oath.
    Do any of you have any objections to testifying under oath?
    Let the record reflect that the witnesses have responded 
no. The Chair then advises you under the rules of the House and 
the rules of the committee you're entitled to be accompanied by 
counsel.
    Do any of you desire to be accompanied by counsel today?
    Let the record reflect the witnesses have responded no. If 
you would, please rise and raise your right hand so you may be 
sworn in.
    [Witnesses were sworn.]
    Ms. DeGette. You may be seated.
    Let the record reflect the witnesses have now responded 
affirmatively and you are now under oath and subject to the 
penalties set forth in Title 18 Section 1001 of the U.S. Code.
    The Chair will now recognize the witnesses for five minutes 
summary of their written statements. In front of each of you is 
a microphone and a series of lights. The light turns yellow 
when you have a minute left and it turns red to indicate that 
your time has come to an end.
    And so let's start with you, Mr. Chester. You are now 
recognized for five minutes.

STATEMENTS OF KEMP CHESTER, ASSISTANT DIRECTOR OF THE NATIONAL 
 OPIOIDS AND SYNTHETICS COORDINATION GROUP, WHITE HOUSE OFFICE 
  OF NATIONAL DRUG CONTROL POLICY; MATTHEW DONAHUE, REGIONAL 
 DIRECTOR NORTH AND CENTRAL AMERICAS, OPERATION DIVISION, DRUG 
ENFORCEMENT ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE; THOMAS 
 F. OVERACKER, EXECUTIVE DIRECTOR, OFFICE OF FIELD OPERATIONS, 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
   SECURITY; GARY R. BARKSDALE, CHIEF POSTAL INSPECTOR, U.S. 
  POSTAL SERVICE; DAVID A. PRINCE, DEPUTY ASSISTANT DIRECTOR, 
       TRANSNATIONAL ORGANIZED CRIME, HOMELAND SECURITY 
   INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
 DEPARTMENT OF HOMELAND SECURITY; CAROL CAVE, DIRECTOR, OFFICE 
  OF ENFORCEMENT AND IMPORT OPERATIONS, OFFICE OF REGULATORY 
AFFAIRS, FOOD AND DRUG ADMINISTRATION, DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

                  STATEMENT OF KEMP L. CHESTER

    Mr. Chester. Chairwoman DeGette, Ranking Member Guthrie, 
members of the subcommittee, thank you for inviting me to 
testify today on this critical issue.
    The Office of National Drug Control Policy, under the 
leadership of Director Jim Carroll, leads the development of 
the administration's national drug control strategy and 
oversees its implementation.
    The 2019 strategy is a comprehensive plan to address the 
president's top drug priority--the current opioid crisis--also 
focusing on the emergence of even newer synthetic opioids and 
other emerging crises such as methamphetamine use and the 
increase in cocaine availability.
    As part of the executive office of the president, ONDCP is 
uniquely positioned and has played an integral in coordinating 
a comprehensive approach to drug policy development and 
implementation.
    It has facilitated successful interagency collaboration, 
coordination, and problem resolution on myriad drug policy 
issues.
    To that end, ONDCP has led countless interagency efforts 
directly related to the illicit opioid problem set. ONDCP 
established the National Heroin Coordination Group, recently 
renamed the National Opioids and Synthetics Coordination Group, 
in the fall of 2015 to apply new thinking to the heroin and 
fentanyl problem and develop a novel approach to addressing it.
    We worked collaboratively with the interagency in 2016 to 
develop and issue the Heroin Availability Reduction Plan, or 
HARP, to guide and synchronize interagency activities against 
the available of heroin, fentanyl, and fentanyl analogs.
    To this day, the HARP is the one document that brings 
together, contextualizes, and synchronizes the Federal 
Government, activities at the federal, state, local, and tribal 
levels as well as in the international domain.
    Ten times every month our opioids and synthetics 
coordination group leads video teleconferences at all levels of 
classification and nationwide webinars where departments, 
agencies, state, local, and tribal officials and key embassies 
share information and synchronized efforts based upon a common 
understanding of the strategic trends related to the opioid 
problem set.
    This level of direct leadership has been instrumental in 
developing a better understanding of the crisis at all levels 
as well as serving as the driver for collaboration and tangible 
results both domestically and with international partners.
    Based upon our in-depth understanding of the opioid crisis, 
key issues such as the challenges of fentanyl detection, safe 
fentanyl handling, and the need for innovative public health 
approaches were brought to the forefront and are currently 
being addressed.
    Our partnership with the U.S. Postal Inspection Service has 
increased interagency understanding of the international and 
domestic mail flow into the United States, and U.S. 
vulnerabilities in disrupting the fentanyl and synthetic opioid 
supply chain.
    Our collaboration with the FBI-led Joint Criminal Opioid 
and Darknet Enforcement, or J-CODE, team, U.S. Customs and 
Border Protection's National Targeting Center, and our 
management of key international relationships with Mexico, 
Canada, China, Afghanistan, and others have brought tangible 
results in disrupting the flow of these dangerous drugs across 
our borders.
    For example, because of the interagency focus on disruptive 
the fentanyl supply chain, in the spring of 2017 CBP began to 
imprint odor of fentanyl on all narcotics detection K9s, and 
now more than 450 dogs are trained addressing a critical 
vulnerability in our detection capability.
    As the fentanyl threat grew in 2016 and 2017, the lack of 
good scientific information concerning the threat of fentanyl 
exposure had a chilling effect on U.S. law enforcement and our 
first responders.
    ONDCP initiated an interagency working group to develop and 
publish the fentanyl safe handling recommendations, and shortly 
thereafter CBP released a companion roll call video in use 
today.
    ONDCP is leading an interagency process with the 
Departments of Justice and Health and Human Services to 
schedule fentanyl analogs before the temporary action expires 
while providing a framework to address the dynamic illicit drug 
market in a more comprehensive manner and making all of these 
substances available to the research community.
    The national drug control strategy states, quote, ``While 
confronting today's drug crisis to arrest its growth and reduce 
its effects, we must also further develop the capability, 
knowledge, and infrastructure to respond to the evolving nature 
of the drug threat as we move deeper into the 21st century,'' 
closed quote.
    The men and women of ONDCP are doing just that. I would 
like to thank this committee and your House colleagues for your 
foresight and leadership in addressing this critical national 
security, law enforcement, and public health challenge.
    Thank you for the opportunity to testify today and I look 
forward to your questions.
    [The prepared statement of Mr. Chester follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you, Mr. Chester.
    Mr. Donahue, you're now recognized for five minutes.

                  STATEMENT OF MATTHEW DONAHUE

    Mr. Donahue. Good morning, Chairman DeGette, Ranking Member 
Guthrie, and members of the subcommittee. It is my honor to 
appear before you today to discuss the critically important 
issue of illicit fentanyl and fentanyl like substances that 
have had a tremendous impact on the health and safety of our 
communities.
    Illicit fentanyl and other fentanyl like substances are 
especially dangerous drugs are often far more potent and deadly 
than other drugs like heroin and cocaine.
    I have had the privilege of being a DEA special agent for 
almost 30 years, having worked in South America, the Caribbean, 
and now North and Central American region.
    When I reflect on my time with DEA, the challenge we face 
with the ongoing opioid crisis, along with the sophistication, 
capacity, and global reach of Mexican poly-drug cartels is what 
worries me and deeply concerns me the most.
    As the regional director of North and Central America 
region, I see firsthand everyday the extreme lawlessness and 
other atrocities committed by Mexican cartels to maintain their 
dominant market share to provide illegal substances to 
individuals in the United States.
    The ruthlessness of these cartels, combined with their 
callous greed, is devastating families and communities, 
resulting in an increase of violent crime in the United States.
    Dangerous and highly sophisticated cartels operating in 
both Mexico and the United States have been and will continue 
to be the most significant source of illicit narcotics 
trafficked into and throughout the United States.
    When it comes to illicit fentanyl, China is the primary 
manufacturing source as well as the source of precursor 
chemicals needed to manufacture fentanyl outside of China.
    However, I would be remiss if I didn't say that China has 
taken important action to stem this manufacturing by the 
extraordinary step of controlling the entire class of fentanyl-
based drugs.
    History has shown that when China and the United States 
have jointly controlled the drug it has drastically decreased 
its importation into the United States.
    However, Mexican cartels now have increasingly an important 
role in the fentanyl trafficking. We have witnessed a 
transition from importation of precursor chemicals for the 
production of fentanyl to the manufacturing of precursor 
chemicals and fentanyl within Mexico itself. This is a very 
alarming development.
    Fentanyl comes into the United States in three ways. It is 
shipped directly to the United States through the U.S. mail 
services, it is trafficked in through our northern border, and 
most importantly, it is trafficked over our southern border via 
Mexican cartels by various means and methods.
    In many cases, fentanyl comes in the form of counterfeit 
prescription pills. Oftentimes, people believe they may be 
ordering Hydrocodone or Oxycodone on the internet but they're 
receiving a fentanyl or a fentanyl analog, which could lead to 
deadly consequences.
    As a leader of DEA in Mexico, I can say confidently that we 
have not been a spectator in this battle. DEA has the largest 
footprint of the United States Government in Mexico. We are 
addressing this threat by focussing on efforts of identifying 
the supply chain and disrupting it. We are working bilaterally 
and judiciously targeting and dismantling the cartels.
    Through our more than 300 domestic and international field 
offices, our special operations division, which works with our 
interagency and international partners, we are conducting 
large-scale investigations and prosecuting those who seek to 
profit and are responsible for the production, transportation, 
distribution, and sale of these deadly substances.
    Perhaps one of the most notable examples of these efforts 
is the 2016 arrest of Sinaloa cartel leader Joaquin Guzman 
Loera, commonly known as El Chapo, who coincidentally is being 
sentences tomorrow in New York City.
    The DEA will continue to investigate the biggest and most 
egregious organizations that are poisoning our communities. We 
will continue to focus on targeting drug cartels and 
significant organizations operating in and outside the United 
States whose only motive is to make tremendous profits on 
unsuspecting and vulnerable populations.
    But there is more work to be done. On February 6, 2018, the 
DEA used its authority under the Controlled Substances Act to 
temporarily place all nonscheduled fentanyl like substances in 
Schedule I and it has had a significant impact.
    Let me reiterate that point. The temporary control of all 
nonscheduled fentanyl substances has had a significant positive 
impact in this fight. The class control action has 
substantially slowed the rate at which new substances are 
introduced to and encountered on the illicit market.
    However, this temporary action expires February 2020, which 
is only 206 days away. Additionally, if lawful access is not 
addressed, criminals will continue to use our own laws to evade 
detection and exploit members of our communities as technology 
advances and law enforcement is prevented from judicial 
interception and collection.
    Make no mistake--no matter the challenge, DEA will never 
stop aggressively pursuing the most dangerous and prolific 
criminals trafficking in illicit drugs in our communities.
    Thank you for the opportunity to testify before your 
subcommittee on this important issue and I look forward to your 
questions.
    [The prepared statement of Mr. Donahue follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette.  Thank you so much, Mr. Donahue.
    Mr. Overacker, you are now recognized for five minutes.

                STATEMENT OF THOMAS F. OVERACKER

    Mr. Overacker. Chairwoman DeGette, Ranking Member Guthrie, 
members of the subcommittee, thank you for the opportunity to 
testify before you today.
    I am proud to represent the men and women of the U.S. 
Customs and Border Protection, our nation's unified border 
agency with a vital counter narcotics mission.
    On a typical day, CBP seizes more than 5,800 pounds of 
narcotics that would otherwise make their way into American 
communities. While today's hearing focusses on the opioid 
crisis and its devastating effects, CBP is committed to 
stopping all illicit drugs from crossing our borders.
    For example, last month, with our partners at Homeland 
Security investigations and the United States Coast Guard, CBP 
seized more than 19 tons of cocaine on a container ship in 
Philadelphia.
    The cocaine had an estimated street value in excess of $1.3 
billion and was the largest cocaine seizure in the combined 
230-year history of the U.S. Customs Service and CBP.
    Compared to cocaine or methamphetamine, CBP seizures of 
fentanyl are relatively low. However, these seizures have 
increased dramatically in recent years and that is cause for 
concern.
    In fiscal year 2013, CBP seized approximately two pounds of 
fentanyl. Last year, we seized over 2,100 pounds. Through June 
of this year, we have already seized as much as we did last 
year. Most of the fentanyl coming into our country does so at 
ports of entry along the Southwest border. It's brought in by 
privately owned vehicles, commercial vehicles, even 
pedestrians.
    Less frequent is fentanyl entering through international 
mail packages and express consignment environments. In those 
cases, most of the shipments originate from China.
    However, the fentanyl in the international mail and express 
environments is far more potent and pure than the fentanyl 
crossing the Southwest border. Stopping fentanyl and other 
narcotics takes a collaborative effort.
    Through CBP's national targeting center we work with our 
partners to identify and disrupt fentanyl smuggling at ports of 
entry, international mail facilities, and express consignment 
carrier facilities.
    Our partners include Homeland Security investigations, the 
United States Postal Inspection Service, the Drug Enforcement 
Administration, Health and Human Services, Food and Drug 
Administration, the Office of National Drug Control Policy, the 
Organized Crime Drug Enforcement Task Force, and numerous other 
domestic and international partners.
    Based on our encounters, CBP produces intelligence products 
to help identify the tactics, techniques, and flow of drug 
trafficking. This enhances targeting efforts and supports 
investigations.
    It also provides policymakers, agency leadership, and the 
intelligence community with information that can lead to drug 
interdiction.
    Information sharing, advanced electronic data, the 
targeting of precursors and pill presses are among the many 
elements that inform our actionable intelligence and allow us 
to combat narcotics trafficking in a dynamic threat 
environment.
    In addition, CBP uses a variety of technologies and 
techniques to detect and identify illicit drugs. With the 
support of Congress, we are making significant investments and 
improvements in these capabilities, including additional 
narcotics detection K9 teams, enhanced field testing and new 
nonintrusive inspection, or NII, equipment.
    NII contributes to more than 98 percent of the number and 
total weight of seizures. Currently, CBP scans approximately 
two percent of privately-owned vehicles and 16 percent of 
commercial vehicles arriving at the Southwest border ports of 
entry.
    To enhance our capabilities, CBP has developed a new model 
port concept that prioritizes the use of drive through scanning 
equipment to streamline the inspection process and increase 
scanning rates, thereby increasing the probability of 
interdiction.
     To protect CBP personnel, who may be exposed to dangerous 
substances during the course of their duties, we have deployed 
more than 1,100 2-dose boxes of counter narcotic Naloxone to 
train personnel in the field.
    CBP was the first federal law enforcement agency to 
implement such a program and we have already administered nine 
lifesaving doses to members of the public.
    Together, CBP and its partners are focused on enhancing 
collaboration and information sharing to reduce the amounts of 
illicit opioids that cross our land, air, and sea borders.
    Thank you for allowing me the opportunity to tell our 
story. I look forward to your questions.
    [The prepared statement of Mr. Overacker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you so much.
    Mr. Barksdale, you are now recognized for five minutes.

                 STATEMENT OF GARY R. BARKSDALE

    Mr. Barksdale.  Good morning, Chair DeGette, Ranking Member 
Guthrie, and members of the subcommittee.
    I appreciate this opportunity to be here today to discuss 
efforts to combat opioids, including fentanyl.
    My name is Gary Barksdale. I am the chief postal inspector 
for the United States Postal Inspection Service, the law 
enforcement arm----
    Ms. DeGette.  Mr. Barksdale, can you move the microphone 
just a little closer? Thank you.
    Mr. Barksdale. Winning the battle against illicit drugs in 
the mail stream is one of our top priorities. Postal inspectors 
work not only to remove drugs from the mail but to investigate 
and arrest individuals and disrupt drug trafficking networks 
across the U.S.
    Internationally, the inspection service is working 
aggressively to stem the flow of illegal drugs entering the 
country.
    Due to the opioid crisis, nearly two years ago we created 
an internal team of cross-functional subject matter experts 
specifically focussed on narcotics trafficking through the 
mail.
    The Contraband Interdiction and Investigations team, or 
CII, uses enhanced investigative methods, deploys resources as 
needed, and strengthens strategic partnerships to achieve 
significant improvements in our ability to seize fentanyl and 
synthetic opioids from the mail.
    The inspection service works closely with other law 
enforcement agencies to share intelligence, coordinate cases, 
and conduct joint enforcement operations to maximize our 
resources and impact.
    Relationships with partners such as DEA, HSI, CBP, and FDA 
allow us to better advance our mission to enforce the laws that 
defend the nation's mail.
    Inspection Service personnel are assigned full time at 
ONDCP, the DEA's Special Operations Division, the National 
Fusion Center, and CBP's national targeting center. 
Internationally, the Postal Inspector is now detailed at 
Europol and the Hague.
    We also work with state and local law enforcement to share 
intelligence and conduct joint operations including several 
Inspection Service sponsored task forces. These relationships 
facilitate communication and data sharing that enable the 
identification of drug trafficking organizations which would 
not be possible without interagency cooperation.
    The Inspection Service launched cyber and analytics unit to 
enhance investigative techniques to better utilize data to 
target parcels. Due to many illicit dark web vendors aligned 
with physical delivery networks for their products, the 
Inspection Service is involved with investigations into vendors 
and the take down of their illicit marketplaces.
    The Inspection Service has also joined DHS, CBP, and ONDCP 
as a sponsor for the opioid detection challenge, which is a 
global prize competition for rapid nonintrusive detection tools 
that will help find illicit opioids in international mail.
    Postal inspectors interdict and seize thousands of illegal 
drug shipments in the mail. From fiscal year 2016 through 2018, 
we achieved a thousand percent increase in international 
synthetic opioid seizures and a 750 percent increase in 
domestic synthetic opioid seizures.
    Thus far in fiscal year 2019 we have seized 185 synthetic 
opioid parcels, 153 of which were in the domestic mail stream. 
Our current stats represent a decrease in international 
seizures while our domestic seizures are trending up.
    This shift may suggest synthetic opioids are increasingly 
entering the country through means other than international 
mail.
    In 2018, Congress enacted the STOP Act, which requires the 
Postal Service to receive advanced electronic data, or AED, on 
at least 70 percent of inbound package shipments including 100 
percent of shipments from the People's Republic of China by 
December 2018 and 100 percent of all inbound international 
shipments by December 2020.
    The volume of inbound packages with AED has improved from 
26 percent in October of 2017 to approximately 60 percent in 
May of 2019, while the volume of packages with AED from China 
has increased from 32 percent to approximately 85 percent in 
May of 2019. This represents a significant improvement within a 
relatively limited period of time.
    The Postal Service continues to collaborate with foreign 
postal operators and organizations that support international 
postal operations to work towards obtained AED on 100 percent 
of inbound packages and shipments.
    We have significantly improved coordination with CBP and 
developed processes to ensure we take action on requests to 
hold packages for inspection.
    The Postal Service currently has a 93 percent success rate 
in the capture of CBP hold requests and they will continue to 
focus on employing technology to improve interception 
capability and reach 100 percent.
    The Postal Service takes seriously its mission to protect 
the security and sanctity of the mail and is committed to 
taking all necessary actions to combat illicit drugs in the 
mail.
    Thank you for this opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Mr. Barksdale follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you, Mr. Barksdale.
    Mr. Prince, you're now recognized for five minutes.

                  STATEMENT OF DAVID A. PRINCE

    Mr. Prince. Chairwoman DeGette, Ranking Member Guthrie, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you to discuss my agency's efforts 
in attacking the national opioid crisis impacting our 
communities.
    Homeland Security investigations is the department's 
primary criminal investigative agency and is focussed on 
disrupting and dismantling transnational criminal 
organizations.
    As the sole investigative agency with combined customs and 
immigration authorities, HSI investigates and enforces more 
than 400 federal criminal statutes that protect our nation's 
trade, travel, financial, and immigration systems.
    Today, I would like to speak about our successful efforts 
in combatting the flow of illicit fentanyl into the United 
States. In fiscal year 2018, HSI initiated 1,393 opioid related 
criminal investigations, executed 5,262 opioid related criminal 
arrests, and seized a total of 9,928 opioid--pounds of opioids, 
which consisted of 2,737 pounds of fentanyl and 7,103 pounds of 
heroin.
    Our 2019 fiscal year statistics are set to exceed 2018 
statistics in these areas. HSI has collaborated with Chinese 
authorities to address the China-sourced fentanyl threat 
through investigative information sharing. As of May 1st, 2019, 
Chinese authorities passed legislation making all fentanyl 
illegal.
    However, it is still--it still remains a threat. We are now 
urging general administration of China customs and China postal 
services to secure its mail and express consignment industry.
    Through our transnational criminal investigative units in 
Mexico, HSI works to disrupt Mexico-based opioid TCOs. TCIUs 
are multi-discipline units comprised of foreign law enforcement 
officials who ensure that shared information and operational 
activities are collaborated upon without compromise.
    HSI's customs authorities extend to the virtual border of 
the open internet and the dark net. HSI's Cyber Crime Center, 
known as C3, provides support and assistance to global cyber 
investigations targeting illicit marketplaces where fentanyl 
and opioid sales proliferate.
    Today, HSI has more than 700 open cyber crime 
investigations and more than 200 investigations specifically 
targeting criminal dark net organizations.
    Many of these investigations focus on illicit opioid 
suppliers. HSI is at the forefront of cyber investigations and 
has been successful in developing methods to track and trace 
digital crypto currency, often used as a payment system for 
online opioid transactions.
    In fiscal year 2018, HSI delivered its online international 
opioid smuggling training course to more than 4,000 local, 
state, federal, and international law enforcement partners.
    This course provides law enforcement with the technical 
knowledge and in-depth case briefings to assist criminal 
investigations involving the dark net and crypto currency-
related crimes.
    The Border Enforcement Security Task Force, known as BEST, 
utilizes local, state, and federal agencies at land border sea 
port, international airport, and mail facility locations to 
target TCOs.
    There are currently 65 BEST teams across the United States 
and we have increased our presence at international mail 
facilities and express consignment carrier to include JFK, LAX, 
Memphis, and Louisville.
    We have also established BEST teams in areas hardest hit by 
the opioid epidemic such as Ohio and West Virginia. In fiscal 
year 2018, BEST Memphis initiated 204 narcotic control 
deliveries, executed 46 criminal arrests. It effected 149 
seizures.
    BEST Cleveland has initiated Operation Darkness Falls to 
target top dark net vendors. Darkness Falls has led to the 
disruption and dismantlement of large-scale opioid vendors to 
include the largest identified fentanyl vendor with the most 
verified transactions.
    The National Targeting Center Investigations--NTCI--
partners with CBP and Postal Inspection Service to interdict 
illicit opioids entering the United States.
    Recently, NTCI assisted in an investigation where 171 
pounds of fentanyl was seized from a New Jersey-based TCO 
involved in the importation of opioids.
    To date, this investigation is one of the largest domestic 
seizures of fentanyl from China. HSI seeks to identify, 
disrupt, and dismantle criminal financial networks and 
leverages a multitude of investigative techniques to target 
money service businesses, all cash smuggling, and crypto 
currency.
    In fiscal year 2019 thus far, HSI seized nearly $1.9 
million in fentanyl-related digital currency and has over 268 
open investigations involving the illicit use of crypto 
currency.
    I am grateful for the opportunity to appear before you to 
share HSI's efforts to combat the opioid epidemic. We will 
continue our commitment to maximize our full complement of 
authorities.
    I thank you for the support that you provide to HSI as we 
execute our mission and I look forward to any questions you 
have.
    [The prepared statement of Mr. Prince follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette.  Thank you so much, Mr. Prince.
    And Ms. Cave, you are now recognized for five minutes.

                    STATEMENT OF CAROL CAVE

    Ms. Cave. Good morning, Chairwoman DeGette, Ranking Member 
Guthrie, and members of the subcommittee.
    Thank you for the opportunity to be here today to discuss 
the Food and Drug Administration's role in combatting our 
nation's ongoing crisis of opioid addiction, specifically 
regarding fentanyl.
    I am Carol Cave, the director of the Office of Enforcement 
and Import Operations within FDA's Office of Regulatory 
Affairs.
    FDA, along with our partner government agencies, continue 
to work together to consider more active and creative steps to 
make inroads against this crisis.
    I am pleased to be here today to discuss the work we are 
doing at our nation's borders and at the international mail 
facilities, or IMFs.
    FDA plays an important role related to the interdiction 
work that takes place in IMFs and has acted to enhance our 
operations there. In the international mail environment, 
Customs and Border Protection is the leading interdicting 
authority for controlled substances including fentanyl and 
other opioids.
    As such, they examine before FDA and generally will act 
against these types of shipments without forwarding for FDA for 
review. FDA is focusing on inspecting and sometimes testing 
products that may be counterfeit or unapproved drug products.
    Last year, Congress gave FDA more tools to intercept 
illicit drugs coming through our nation's IMFs by enacting the 
SUPPORT Act. On behalf of FDA, I would like to thank the 
members of this committee for your work on these important 
authorities.
    The SUPPORT Act, specifically Section 3022(d), gives the 
FDA new authority to treat imported articles as drugs when they 
meet certain requirements, even in the absence of certain 
evidence of intended use.
    This allows FDA to apply its existing authorities to 
appropriately detain, refuse, and administratively destroy 
these subject articles.
    The implementation of this section, which began in March of 
this year, has been an unquestioned success. For articles 
determined to be under the 801(u) product specifically our 
destruction rate is, roughly, 99 percent, thus eliminating 
distribution of these products into the hands of consumers.
    Additionally, on April 4th of 2019, FDA and CBP leaders 
signed a letter of intent that addresses the areas of 
cooperation outlined in Section 3014 of the SUPPORT Act, 
including information sharing, operational coordination for 
better targeting of high-risk parcels, and collaborative 
strategies. FDA and CBP have actively been exploring ways to 
enhance collaboration and increased efficiency of operations by 
sharing existing but limited space.
    As FDA is able to increase the amount of space allocated to 
its activities in the IMS, FDA can further add staff, enabling 
the agency to expand its admissibility review of drugs shipped 
into the U.S. international mail parcels.
    The letter of intent also addresses FDA's and CBP's 
commitment to establish, expand its scientific presence at the 
IMS considered most of risk of receiving opioids and other 
illegal or dangerous drugs entering the United States.
    FDA and CBP are looking at ways to develop and refine 
laboratory-based methods to identify unapproved, counterfeit, 
and other unlawful controlled substances.
    The division of import operations managers have met several 
times with their counterparts at CBP and U.S. Postal Service to 
assess how our respective systems can be utilized to share data 
and information on actions taken by the agencies on individual 
parcels and commodities.
    All three agencies are considering the most appropriate and 
efficient means of using existing data streams to share IMS 
specific data and investigational outcomes.
    We remain committed to using our regulatory authority to 
the fullest extent to address the opioid crisis including new 
authorities granted by FDA--granted to FDA by the SUPPORT Act.
    Thank you for the opportunity to testify today and I look 
forward to answering your questions.
    [The prepared statement of Ms. Cave follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. DeGette. Thank you so much, Ms. Cave.
    It's now time for Members to ask you questions and the 
Chair will recognize herself for five minutes.
    Mr. Donahue, combatting fentanyl is challenging because, as 
we all know, it is cheap and easy to make. It has huge profits. 
It is hard to detect in shipments and it is deadly even in 
small amounts.
    It's also increasingly mixed into other drugs, often 
without the user's knowledge, and so that leads to more 
overdoses.
    Would you agree with me with that assessment of the 
challenge that we are facing?
    Mr. Donahue.  Yes, Congresswoman. I appreciate the question 
and it's not an easy one because with all the drugs and the 
fentanyl and the different types of drugs coming in from other 
countries we are required to have their cooperation and we 
actually investigate these cartels specifically here with the 
fentanyl coming in. We are concerned with China, sometimes 
India, sometimes Holland where the drugs are coming in----
    Ms. DeGette. Right.
    Mr. Donahue [continuing]. Directly to United States and/or 
to Mexico to produce it and send it up.
    Ms. DeGette. But it's--because of all the things I said 
it's harder to make those identifications and so working with 
the other countries is even more important. Wouldn't that be 
fair?
    Mr. Donahue. Extremely important, and with our panel 
members here as well working collectively on attacking the 
people who are actually producing the drugs and shipping the 
drugs and actually really the key is prosecutions.
    Ms. DeGette. Right.
    Mr. Donahue. We got to do something with the seizures that 
we make in the United States and bring it back to the source 
countries and gain their cooperation to attack the source of 
the drugs.
    Ms. DeGette. To do it there.
    Mr. Chester, your agency has been trying to coordinate drug 
control efforts for a long time. What are we doing to think 
outside the box in addressing the fentanyl threat that's 
different from what we've been doing with some of the previous 
illicit drug control strategies?
    Mr. Chester. Thank you for the question, ma'am. I think 
we've done a couple of things. The first 1 is we have, through 
our interagency coordination and our work with the intelligence 
community and with partner nations, we are a generation ahead 
of where we were before in understanding the problem first, 
which I don't believe we had a good grasp on what the nature of 
the problem was and we didn't have an ability----
    Ms. DeGette. When was that? When was that?
    Mr. Chester.  This was really about the 2014-2015 time 
frame, and so what this does is with this greater understanding 
we can--we can look beyond the immediate actions that we take 
and are better able to anticipate trafficker actions in 
switching to other synthetic opioids. I think that's the first 
thing.
    And then I think the second thing is we look outside of the 
bounds of one particular class of drugs to things like 
nonsynthetic opioids and things of that nature, and our 
understanding has allowed us to be able to be more--much more 
anticipatory than we have been in the past.
    Ms. DeGette. Do you think that the agency cooperation has 
been different than it was before and if so, how?
    Mr. Chester. Absolutely. I think the level of information 
sharing--the first one is in the mechanisms that we have put in 
place, and when I say ten times every single month all of the 
members of this--of this panel and the agencies and departments 
that they represent, we have mechanisms to share cooperations 
at all levels of classification.
    The ability to coordinate and the ability not only to shape 
our own actions domestically but our approach with other 
countries as well much, much better than it has been in the 
past.
    Ms. DeGette. Mr. Overacker, I would like to ask you, do you 
agree that the agencies are doing a better job of sharing data 
and working together than in the past?
    Mr. Overacker. Yes, I believe so. My experience tells me 
that when we can link up, you know, investigators with 
operators we can do a better job of basically identifying 
targets and supporting, you know, investigations in the field.
    This is something we've done at our national targeting 
center. It's been successful, and now with this fentanyl crisis 
we've really amped up our capabilities for that purpose.
    Ms. DeGette. What is it that you're doing differently now? 
Obviously, we can all agree that coordination is great. But 
what is it that you're doing differently?
    Mr. Overacker. Well, I wouldn't necessarily say it's 
different, just to say that I think what we've learned over the 
years is we have to be working on this daily.
    It has to--you know, it's a collaboration and it really is 
something you have to work on every day and I think it's just--
the level of collaboration we have for the fentanyl crisis is 
more than what we've seen for other issues in the past.
    Ms. DeGette. And what can we do to help you do your job 
better? Is there something--is there a better way to share data 
across the agencies? Is there something that we can do to help?
    Mr. Overacker. Well, you know, we certainly appreciate your 
support--your continued support for CBP. As far as data 
sharing, we do have, you know, data sharing arrangements with 
all of these agencies, and because we work collectively at our 
national targeting center we are able to share information in a 
sort of rapid real-time format.
    Ms. DeGette. OK. Thank you.
    I yield back and recognize Mr. Guthrie for five minutes.
    Mr. Guthrie. Thank you very much, and I want to go down the 
panel with this question, and so be mindful I got to do that in 
five minutes and ask a couple of other questions, too. So, I am 
going to be brief.
    So, I just want each of you to say your agencies in 
fentanyl, what is your biggest accomplishment the past two 
years--your agencies.
    I know you have done a lot, but your biggest--and then what 
your biggest challenge is.
    Mr. Chester. I would say that our biggest accomplishment is 
the publishing of the National Drug Control Strategy, which 
contextualized everything the departments and agencies are 
doing in this particular regard for all drug issues, but in 
this 1 specifically.
    I would say that our biggest challenge is the rapidity with 
which new substances appear in the United States either have 
crossed our borders or are detected in post-mortem toxicology 
testing.
    That is--that is something that requires an enormous amount 
of effort.
    Mr. Guthrie. Thank you.
    Mr. Donahue?
    Mr. Donahue. I would say one of our biggest accomplishment 
is actually scheduling--emergency scheduling all analogs of the 
fentanyl, which has really greatly helped DEA in our 
investigations. One of our biggest challenges is actually 
obtaining the evidence required to enter to the Grand Jury in 
the United States to target these cartels that are producing 
and trafficking in fentanyl in the court of law in the United 
States.
    We recently established our Sensitive Investigative Units 
specifically for that reason to work with our counterparts to 
obtain evidence in the foreign countries to utilize back in the 
Grand Jury in the United States. But that's a very big 
accomplishment for us that we are going to use, going forward.
    Mr. Guthrie. Thank you.
    Mr. Overacker?
    Mr. Overacker. From a CBP perspective, I would say one is 
our detection capabilities. We now have a fully staffed 24/7 
laboratory in Springfield, Virginia, dedicated exclusively to 
fentanyl and we've also deployed detection equipment throughout 
CBP so we can identify fentanyl in a safe way.
    I would also say that our collaboration with the U.S. 
Postal Inspection Service is another big success story for us 
as we increased our level of effort with them. And also just 
through our national targeting center the partners that we work 
with there and the coordination efforts, the sort of community 
of effort that we've established through the national targeting 
center is important.
    Mr. Guthrie. Thank you.
    Mr. Barksdale?
    Mr. Barksdale. Thank you. I would say our biggest 
accomplishment, as Mr. Overacker has said, is our collaboration 
and data sharing, our embedded inspectors at the national 
targeting center and DEA's SOD. I've seen a difference in the 
type of cases we are making.
    As far as challenges, I think our biggest challenge is also 
one of our biggest successes is although we've improved in our 
capability to attack the problem, internet sales is still a 
challenge, going forward.
    As good as we are taking down one site, they will quickly 
stand up another site or a different marketplace so that will 
be a challenge, going forward.
    Mr. Guthrie. Thank you.
    Mr. Prince?
    Mr. Prince. I would say some of our things that we can--we 
can definitely say we've accomplished is our development of the 
innovation lab, which is something we bring problem sets to to 
help us expand our capability to deal with stuff like opioids 
and our expansion of the BEST initiative as well, particularly 
with our recent expansions, which we think are going to bear 
fruit.
    You know, our block chain analysis as well in the crypto 
currency space is something that we are very proud of. We 
continue to make inroads in that and it helps us develop much 
more robust target packages on our complex conspiracy 
investigations.
    Obviously, China is recalcitrant when it comes to a lot of 
these issues that we are dealing with that was part of our oral 
testimony, and I would say that's a challenge that we continue 
to deal with.
    Mr. Guthrie. Thank you.
    Ms. Cave?
    Ms. Cave. Good morning. I would say the number-one thing 
for the FDA is, clearly, the 801(u) authority that was given to 
us by the SUPPORT Act, which actually allows us to destroy 
product when it's coming in as opposed to refusing admission 
and exporting.
    So thank you very much for that. In terms of challenge, I 
would say it's just in the international mail facilities in 
terms of the volume and the sheer volume that we are dealing 
with and the advanced--you know, lack of advanced data that 
comes in, for example, on addressing those issues.
    Mr. Guthrie. A colleague of mine, a couple of them, have 
seen different targeting centers the thing you're talking about 
and just amazed at the effort that you guys are doing in 
working, and then second of all, and just also amazed at the 
volume you're dealing with.
    So, we are mindful of that. I hope to see one of those as 
well.
    Mr. Donahue, I just have less than a minute left. But the 
Wilson Center Mexico Institute reported that fentanyl is 
entering Mexico via the Ports of Manzanilla and Lazaro 
Cardenas,--we say Cardenas,, who's our colleague here--but 
Cardenas,.
    Do you agree with that finding and, if so, what level of 
cooperation is DEA getting from Mexico law enforcement 
authorities at these ports in taking and seizing fentanyl?
    And when are their--I will go ahead and ask the second 
question--you may answer them together. In an interview with 
the Wilson Center Mexico Institute, Mexico federal forces said 
that they did not believe that fentanyl was a significant part 
of the Mexican drug traffickers' criminal portfolios.
    In your opinion, what do you comment on that?
    Mr. Donahue. They are both two big ports where we see 
enormous amount of precursor chemicals coming in, not just for 
fentanyl but for methamphetamine and for production of heroin 
as well.
    We are seeing chemicals coming in through the airports as 
well from China in various forms. We are working with OFAC as 
well to take those addresses that we are getting in China, 
working with our offices in China to follow up to see what 
laboratories they're coming from.
    So you see large numbers coming in through the ports. But 
we also see them coming in through the airports and other small 
airports as well in Mexico.
    In our assessment and active investigations and 
intelligence they are synthesizing fentanyl inside of Mexico 
and we've seen pill mills with industrial size pill presses 
making fentanyl pills inside of Mexico, specifically on the 
border, and we've had seizures in the airports of pills----
    Mr. Guthrie. I didn't leave you much time to answer. My 
time has expired. So, I appreciate your answer.
    Ms. DeGette. Thank you so much.
    The Chair now recognizes Ms. Schakowsky for five minutes.
    Ms. Schakowsky.  I thank the Chair and ranking member and I 
thank you all for coming today to testify.
    I am really glad that you all gather together to discuss 
this critical issue and I believe it will require a broad 
government approach to tackle the spread of illicit fentanyl 
across the public health, law enforcement, and international 
relations sector.
    In particular, I am glad that in recent years both the 
legislative and executive branches appear to have realized the 
devastating failure of the previous war on drugs and have 
turned to a system of helping rather than locking up drug 
users, which has led to mass incarceration of hundreds of 
thousands of Americans, mostly brown and black.
    Recently, Secretary of Health and Human Services Alex Azar 
indicated that he would be fully in support, for example, of 
needle exchange programs as part of his agency's plan to combat 
HIV--the HIV epidemic. But needle exchanges are also critical 
responses to the opioid epidemic.
    In Illinois, Lindsay Hartman of Kane County runs a van 
every Saturday that provides clean needles, clean straws, 
Naloxone, and everything else a drug user needs to stay alive, 
and thankfully the Illinois state legislature passed a bill 
last month to ensure public health vans like Lindsay's can 
continue to run without fear of legal repercussions.
    One important item that's on that van is--are test strips 
that can detect the presence of fentanyl in drugs. A recent 
study from RTI International found that, quote, ``People who 
use illicitly made street opioids and tests them for fentanyl 
by using fentanyl test strips are 5 times more likely to engage 
in safer drug use behavior than when the test comes back 
positive,'' end quote.
    So you can imagine I was disappointed to learn that 
Assistant Secretary of Mental Health and Substance Use Dr. 
Elinore McCance-Katz has publicly come out against the use of 
these test strips, and she wrote, quote, ``Is it our goal 
simply to stop people from dying so they can continue a life of 
'safe' heroin use or should our goal be different?'' End quote.
    So Mr. Chester and Ms. Cave, and then anybody else who 
would like to respond, do you believe that fentanyl testing 
strips and other similar innovative measures are essential to--
for preventing death and shouldn't that be an objective in 
light of the current fentanyl epidemic?
    Mr. Chester. Thank you, Congresswoman. I can't speak on 
behalf of anyone else. I can just----
    Ms. Schakowsky.  No, I am asking you.
    Mr. Chester.  Yes, I understand. So the approaches as we 
laid out in the drug control strategy is three pillars, and two 
of those three pillars are public health. One of them is to 
prevent drug use before it starts and then the second one is to 
provide treatment leading to long-term recovery. Those are our 
main efforts, and any public health interventions, and when I 
mentioned in my testimony innovative public health 
interventions there are a wide range of things that we discuss 
and that we consider. We look for their efficacy in the public 
health space, all designed to save lives and to get people on 
their path to recovery.
    That is our principle concern and that is the bulk of our 
efforts in the public health space specifically when it comes 
to opioids.
    Ms. Schakowsky. So saving lives is a goal?
    Mr. Chester. Absolutely. That is the single and, as it 
states in the strategy, the single criterion of success is to 
save American lives and stop Americans from losing their lives 
to these deadly drugs. Yes, ma'am.
    Ms. Schakowsky.  Thank you.
    Ms. Cave?
    Ms. Cave. So to echo that, I would say I am not a scientist 
or a physician either, and so I would--honestly, I would take 
this back to our department and have them answer as an HHS 
response in terms of what their opinion would be on this issue.
    Ms. Schakowsky.  OK. But it doesn't take a scientist, it 
seems to me, if test strips would actually show that fentanyl 
is present and prevent people--five times more people--lives 
saved because of it, that that's really a values question.
    Ms. Cave. Right. I would say safety, obviously, is number 
one.
    Ms. Schakowsky. Thank you. I yield back.
    Ms. DeGette. Thank you.
    The Chair now recognizes Mr. McKinley for five minutes.
    Mr. McKinley. Thank you, Madam Chair, and I want to thank 
you for holding this hearing. I got to tell you, I am really 
disappointed that it's taken us seven months to have another 
hearing on this topic. Seven months.
    It looks like we are going to get started again because we 
had a hiatus from last--the last Congress. Think about it. 
During the last Congress we had H.R. 6.
    We had CARA, 21st Century CURES. We were having multiple 
hearings on this, and then it all went silent. And I thank you 
for bringing it back up again.
    I think everyone has to understand during that hiatus, 
during that period of time--seven months--215 people died 
yesterday from substance abuse. Two hundred and fifteen people 
died today. Two hundred and fifteen people are going to die 
tomorrow.
    In my state of West Virginia, the epicenter of this 
problem, we have one person dying every eight hours from a drug 
problem. I think we need to be faster with this.
    So let me question, though. The theme or the concept that I 
am still struggling with is that why, and I've had a 
conversation with NIH.
    We've had conversations with other folks. Why are--why are 
Americans turning to drugs to deal with their problems? Why is 
it that we have such a problem?
    I've got the report here that has been filed that talks 
about why America is leading the globe in the use of drugs. As 
an example, in France about 350 people died two years ago from 
drug overdose out of 66 million.
    That's a half of a person per 100,000. In Ohio, it's 35. 
Nearly 40 persons per 100,000 is dying from drugs. Why is 
France not using drugs? What are they doing right in France?
    Or take England, for example. England's ratio of death 
overdose by drugs is 4 per 100,000. In West Virginia, it's 52. 
What are we doing about--what are we actually doing?
    Some of you, like Mr. Barksdale--it's not your issue with 
the Postal--but I want to understand why are Americans turning 
to drugs so rapidly and quickly instead of finding another way 
to deal with drugs.
    Because what we are dealing in this hearing right now is 
the results. We want to chase the drug after it's come here. I 
want to understand why our kids, adults, others, are turning to 
drugs in the first place when the rest of the world isn't. 
They're finding other ways to deal with this problem.
    So I would like maybe each of you to tell me why is it that 
you think America is using drugs at such a greater rate than 
anyplace else in the world.
    Start with you, Mr. Chester.
    Mr. Chester.  Thank you for the question, Congressman. I am 
not--I am not prepared to answer why that is. I don't know just 
as you don't. I think that there are a lot of--a lot of 
variables as to why individuals choose to use drugs.
    However, I will say that we no longer speak in terms of 
supply and demand. We speak in terms of availability and use, 
because we do know and our experience has shown that the 
greater availability of drugs in a community the greater chance 
that an individual will be able to use them for the first time 
and that first use leads to chronic use very, very quickly, 
particularly with opioids.
    Mr. McKinley.  Reclaiming my time.
    Last year we had Zuckerberg in here from Facebook. We had 
Dorsey in here from Twitter. And both of them were saying how--
thumping their chest they don't use--they don't sell--they 
don't allow that to be sold on their platforms.
    But yet, we demonstrated on both occasions that you can get 
drugs without prescriptions with Facebook, Twitter, Google, all 
these other accounts, and within hours each of them pulled it 
back down again.
    And I am here to say I am told they're back up again. So 
regardless of--we took them to task. They're back out there 
again.
    So we talk about availability. Are our social media 
platforms--are they being used and how can we structure that? 
How can we in Congress do a better job to prevent Facebook, 
Twitter, and others from selling drugs over the internet?
    Mr. Donahue?
    Mr. Donahue. Well, two things. I will get with our demand 
reduction unit in our DEA headquarters because it's an 
important question that you asked and I will get you our answer 
and our opinion that we got with DEA why people are using 
drugs.
    I know one of the things we are always pushing for is the 
ability to be able to judiciously intercept devices--Facebook, 
other things--that we currently can't do with a judicial order 
which causes a huge problem for law enforcement to infiltrate 
certain organizations, not having the ability to get into 
certain encrypted devices.
    Mr. McKinley. Thank you. My time has expired. I yield back.
    Ms. DeGette. The gentleman's time has expired.
    The Chair recognizes the gentle lady from New Hampshire, 
Ms. Kuster.
    Ms. Kuster. Thank you, Madam Chair, and thank you again for 
holding this hearing.
    As we know, the opioid epidemic continues to impact 
communities across this country. This is a crisis that knows no 
demographic and impacts urban and rural communities like mine 
alike.
    My home state of New Hampshire has been one of the hardest 
hit by the country's fentanyl crisis. This is a crisis that 
knows no border, no ocean deep enough, no continent broad 
enough to stop the flow of deadlier and deadlier fentanyl 
analogs.
    As the epidemic evolves, we must evolve our approach to 
combat it and if one thing having all of these agencies before 
us today has shown it's that there's a greater need for an even 
more coordinated approach across international, national, and 
local agencies.
    I want to start with you, Mr. Chester. As you have relayed, 
fentanyl is the biggest driver of overdose deaths, providing 
the best business model to drug traffickers, and being the 
hardest to detect.
    You told committee staff that enforcement has historically 
been focused on interdicting 20th century drug trafficking and 
that it has taken us awhile to develop the architecture and 
means to combat 21st century drug trafficking.
    What do you mean that fentanyl trafficking is following a 
21st century architecture and what challenges do we face in 
adapting our strategy to meet this new threat?
    Mr. Chester.  Thank you for the question, ma'am, and I do 
want to be clear about one thing. We still have a 20th century 
drug trafficking problem in the United States and that's 
principally heroin, and New Hampshire is one of our state 
partners that we hear from every single month, and we've seen 
how heroin has tapered off in New Hampshire while synthetic 
opioids like fentanyl and fentanyl analogs have continued--have 
continued to rise.
    Twentieth century drug trafficking, plant-based drugs that 
are packaged, moved across the borders through a hierarchical 
drug-trafficking organization, and that ends in a face-to-face 
cash transaction somewhere--that's what we refer to as 20th 
century drug trafficking.
    Twenty-first century drug trafficking is an individual who 
does not need to interface with a drug trafficker or a drug-
trafficking organization. They can get on their own laptop.
    They can get on the dark web. They can go to--go to a 
vendor that will sell them the drugs. They can pay for it with 
bitcoin. It will be delivered directly to their house through 
the mail service or through express consignment. That's what we 
refer to as 21st century drug trafficking.
    Unfortunately, we have both of those models that we are 
dealing with right now and I will tell you that our law 
enforcement community and our State Department and our other 
partners have done a remarkable job in being able to take on 
the 21st century drug trafficking at the same time we are still 
dealing with the traditional model that we've dealt with for 
30-plus years of drug policy.
    Ms. Kuster.  Thank you.
    Mr. Prince, fentanyl poses unique challenges compared to 
other drugs. Cheap to make, clandestinely produced in labs, 
easily transportable and, as we know, hard to detect.
    Traffickers are increasingly mixing the drug into other 
narcotics as well as counterfeit prescription drugs. I ask you 
what is HSI doing to tackle the fentanyl epidemic that is 
uniquely different from its efforts to combatting heroin, 
cocaine, and other narcotics?
    Mr. Prince. Thank you for the question, ma'am.
    As my colleague had illustrated the 20th century versus 
21st century drug problem, I call it analog versus digital. Our 
analog methodologies haven't changed in 35 years.
    Surveillance, informant management, cultivation 
development, cooperating defendants, execution of search and 
arrest warrants, those are all our analog tools that we use 
that are always going to be relevant.
    They will be relevant a hundred years from now.
    As far as how we deal with the digital aspect of it, we 
have our innovation lab that I mentioned earlier. We have NTC 
and NTCI. NTCI is placed very squarely in NTC where there's 
information sharing.
    Many of the people here on the panel are part of NTCI or 
NTC, collaborate with us on a daily basis. We have the OCDTF 
program that shepherds large-scale federal investigations in a 
collaborative team effort, and the two meet.
    At some point the digital crypto currency space and the 
dark net activity is going to turn into something at the corner 
of what I say walk and don't walk where a drug deal is done, 
and that's where our ability to deal with the digital space 
while at the same time dealing with the analog space is going 
to bear fruit.
    In my oral testimony, I mentioned just a few cases that 
developed into some significant opioid and fentanyl seizures. 
That's a collaboration of the digital space mingling with the 
analog space and providing arrests, seizures, and significant 
results.
    Many of those investigations are ongoing. Some of those 
investigations are over. But we are moving with the digital 
transformations of the criminal enterprises. We are keeping up 
with what is going on.
    Ms. Kuster. Thank you. I yield back.
    Ms. DeGette. I thank the gentle lady.
    The Chair now recognizes the ranking member, Mr. Walden, 
for five minutes.
    Mr. Walden. Thank you, Madam Chair, and again, thanks to 
the panel. We have two hearings going on simultaneously. So, I 
am kind of bouncing between all of that.
    Mr. Overacker, I was down at the Southwest border touring 
some CBP facilities in Yuma, Arizona on Sunday, and I asked CBP 
whether they had seen an uptick in fentanyl coming in from 
Mexico in the Yuma sector.
    The answer was no, they had not seen an uptick and, in 
fact, drug interdictions on the whole are down across the Yuma 
sector as the CBP checkpoints were shut down for months because 
of the humanitarian crisis on the border, and that meant CBP 
agents could not staff those checkpoints during the border 
emergency, given the huge influx of people.
    So, my question is the data show interdictions are down, 
but with those checkpoints closed I am not sure we can rely on 
those data this year.
    And are there other CBP sectors being similarly impacted by 
this humanitarian crisis at the border and is there anything 
you can tell us about the way the cartels are using and 
profiting from the humanitarian crisis to overwhelm your 
agents--our agents--and then get the drugs in along the way?
    What can you tell us about that?
    Mr. Overacker.  Thank you for the question, sir. The first 
thing I would say is that what we are tracking right now is 
overall our interdictions on the Southwest border are as much 
as we had last year.
    That includes not just what the Border Patrol does at 
checkpoints. That includes our ports of entry and, roughly, 90 
percent of what we seize is at a port of entry as opposed to 
in--between the ports by the Border Patrol.
    I understand the humanitarian crisis has impacted their 
operations. They've also impacted the operations at our ports 
of entry as we've redirected CBP officers to support the Border 
Patrol sector.
    Mr. Walden. So we were hearing.
    Mr. Overacker. As a result, we've had to close lanes at 
ports of entries, which has slowed the amount of traffic.
    But given that 90 percent of what we seize is at a port of 
entry, we are seizing just as much as we did last year overall 
as an agency.
    But with respect to the other Border Patrol sectors, I 
would gladly take that back and get you more information on 
what they are seeing as well.
    Mr. Walden. You might take another look at it because some 
data we were seeing over the weekend showed that it was down 
considerably in some categories.
    Mr. Overacker.  Some categories.
    Mr. Walden.  And so, I just want to make sure that--you 
know, we know your folks are getting overwhelmed when you go 
thousands of people coming in in a given night or hundreds 
where you had 10 or 20 or 30 in the past, and I know we've got 
colleagues that want to get rid of CBP or get rid of ICE and 
don't respect the tough conditions and what you and your folks 
are doing on things like this.
    But we keep hearing they're being pulled aside to do the 
processing of the asylum claims. I mean, there's a lot of this 
work being done. They're not out in the field doing the 
interdictions.
    And so, to what extent do you think this humanitarian 
crisis at the border is affecting the ability to interdict 
these drugs?
    Mr. Overacker. Well, like I say, it has impacted not only 
Border Patrol resources between the ports of entry. It is also 
impacting field operations at the ports of entry in terms of 
just by--just the manpower that we have to dedicate to those 
traditional interceptions.
    Mr. Walden. Right.
    Mr. Overacker.  But I think at the port of entry we've seen 
things stabilize and, of course, with the apprehension numbers 
declining now between the ports of entry, we think that the 
situation is improving.
    Mr. Walden. All right. Mr. Prince, do you have any comment 
on this from your agency's view--DHS?
    Mr. Prince.  Most of the agents that are responding to the 
border crisis are responding to human smuggling or human 
trafficking events. The border crisis at some point could 
create a tipping point for us in the investigative space.
    At this time we are not seeing that. We are deploying 
bodies, agents, to the border. Most of the agents that are 
responding are already at those special agent in charge offices 
along the Southwest border.
    I will say that it has created some opportunities for us to 
open up new portfolios in the investigative tool space, 1 of 
those being DNA testing. The DNA testing is allowing us to 
actually separate children who are being used in a human 
trafficking scheme or a smuggling scheme.
    Mr. Walden. We met with some investigators who had just 
gotten that tool and said they can turn a DNA test in 90 
minutes I think they told us.
    Mr. Prince. Right, and the DNA testing is actually 
identifying children that don't--that aren't of these 
individuals that are crossing the border with them. And so we 
are rescuing kids in this effort.
    Mr. Walden. Yes. All right.
    Madam Chair, my time has expired. Thank you all.
    Ms. DeGette. I thank the gentleman.
    The Chair now recognizes the gentleman from Maryland, Mr. 
Sarbanes, for five minutes.
    Mr. Sarbanes.  Thank you, Madam Chair. Thanks to the panel 
for being here.
    Obviously, we all know well the threat that fentanyl is 
posing to the health and safety of our communities. We've been 
hearing a lot of very strong testimony on that and the 
experience in our districts clearly bears that out as well, and 
it has to be a very coordinated role, which you're trying to 
project here today. I appreciate that.
    I did, Mr. Chester, want to focus a little bit more on the 
role of ONDCP because it asserts this coordinating function 
among all the various agencies that we need leaning in to 
address this crisis and this threat in terms of how our federal 
agencies are responding.
    So tell me a little bit, to try to illustrate the 
coordinating role, what would be happening if your agency did 
not exist in terms of being able to pull the resources together 
across these agencies.
    Mr. Chester. Well, the first thing, Congressman, I think 
there would be a lack of focus and a lack of direction in 
advancing the administration's drug control priorities, and 
that's one of the more important functions that ONDCP does is 
to--is to document our priorities and lay out the lines of 
effort that we are going to--that we are going to operate on. I 
think that's the first thing.
    I think the second thing is that the day-to-day activity of 
ensuring that when departments and the agencies are doing 
things in the drug control space they're doing it for a higher 
purpose and they're doing it in--to get complementary effects 
from other departments and agencies that are working in the 
same space.
    This happens all the time in government, right. You have 
got three or four departments and agencies that are redundant. 
They are doing the same thing.
    They don't--they don't know that the other ones are 
operating and that they are doing that. The third thing is when 
it comes to the interface between what we are doing on the 
national security and law enforcement side of the house and 
what we are doing in the public health space, and we've said 
from the very beginning that we can be as productive on the 
front end of the supply chain of drugs coming in the country as 
we want to.
    But our true effectiveness has to be measured in the public 
health space, and you can--you can increase seizures and 
increase arrests and increase removals in the transit zone and 
do all of that.
    But if Americans continue to die from these drugs then 
you're not being truly effective.
    And ONDCP, by being an organization not only in the 
executive office of the president but one that has national 
security, law enforcement, and public health responsibilities, 
we are the organization that can bring both of those things 
together in a complementary fashion, unlike----
    Mr. Sarbanes.  So let me--let me follow up on that, because 
that last observation in terms of the health dimension of 
this--the public health dimension may be a rationale for why 
some of the grant programs that you have previously 
administered are being proposed to be placed in other 
agencies--the High Intensity Drug Trafficking Areas program.
    Maybe I think it would go to DOJ and the drug-free 
community support programs at HHS.
    So maybe you could explain why that decision is being made, 
and then in terms of your emphasizing the role that the--the 
importance, the priority, that the administration gives to this 
fight and the coordinating, sort of traffic cop role that your 
agency can play in that.
    I don't, frankly, understand how the administration has 
come I think three years running in its proposed budget with a 
proposal to cut your budget by 90 percent.
    Now, we have restored in our appropriations--we recognize 
the value that your agency plays and I think we even plussed it 
up over prior years because we want you to play that role.
    But you need to help me reconcile what you just said, which 
I agree with, that this should be a priority and it should 
reflect the administration's emphasis here on coordinating the 
efforts of all these agencies--on the one hand, reconcile that 
with the fact that the president's budget keeps coming with a 
90 percent proposed cut; on the other hand, which doesn't send, 
I wouldn't think, the right message in terms of the role you 
want to play with respect to all of these agencies in terms of 
coordination.
    So I won't ask any more questions because I am out of time. 
But if you could answer that I would appreciate it.
    Mr. Chester. Thank you, Congressman.
    The discussion about those 2 particular grant programs has 
been going on for many, many years, and the Congress has 
decided where those programs would be originally placed at 
their inception and the Congress will decide where they go.
    I will tell you that both the HIDTA and the DFC program are 
critical to not only the coordination that we do across the 
federal government, and we'll talk about the HIDTA program for 
a second, but the integration of federal, state, local, and 
tribal together is incredibly important, and to ensure that 
that function is rolled into the broader efforts that ONDCP 
does is working very, very well.
    When we talk about preventing drug use before it starts. I 
would struggle to find a program more successful than the drug-
free communities program doing just that.
    And so the placement of the HIDTA program and the DFCs 
together is a great example of what I talked about in bringing 
our national security, law enforcement, and our public health 
programs together in one place and ONDCP is glad to have those 
programs.
    Ms. DeGette. Thank you, Mr. Chester.
    The Chair now recognizes Mr.--the gentleman from Virginia, 
Mr. Griffith, for five minutes.
    Mr. Griffith. Thank you very much, Madam Chair, and 
appreciate you calling this hearing. I know how important this 
subject and other drug issues are to you, and I do appreciate 
it.
    Let me quickly say in response to the previous questioning 
that I fully support the High Intensity Drug Trafficking Area 
program and it's been very helpful in my district.
    Mr. Chester, in May of 2017, the Drug Enforcement 
Administration recovered 50 kilos of NPP. Now, I am going to 
botch this up, but that's N-Phenethyl-4-piperidinone--if I got 
close. But NPP is what we'll call it, a fentanyl precursor 
chemical that could yield about 19 million fentanyl tablets 
with a street value of more than $570 million.
    The NPP was found in a storage locker in Northborough, 
Massachusetts. This recovery of NPP was one of the DEA's 
largest seizures of a fentanyl precursor chemical in U.S. 
history.
    It had been believed prior to that that fentanyl synthesis 
using precursor chemicals is conducted at clandestine labs in 
China or in Mexico. But this appears to call that into 
question.
    Prior to May 2017, do you recall any previous fentanyl 
precursor seizures of this size indicating possible synthesis 
occurring here in the U.S.? Yes or no.
    Mr. Chester. I do not recall a seizure of that size prior 
to that event. No, sir.
    Mr. Griffith. And given the size of the seizure that it was 
a fentanyl precursor chemical and would presumably support a 
nearby fentanyl synthesis lab in the United States, would this 
case be important enough to the Office of National Drug Control 
Policy-ONDCP--on fentanyl issues to be notified about it and 
briefed about it? Yes or no.
    Mr. Chester. Yes, it would be. But when I get the chance I 
would like to talk about its--NPP's relationship with fentanyl 
synthesis. But please finish your questions.
    Mr. Griffith. All right. Let me get--let me keep moving.
    Did the DEA report or brief you--did they either report to 
you or brief you or someone else at the Office of ONDCP about 
this situation?
    Mr. Chester. I don't remember a specific briefing. But we 
get continual reports from the DEA on drug events.
    Mr. Griffith. But you don't remember getting one on this 
one?
    Mr. Chester. This one is not particularly memorable to me. 
No, sir.
    Mr. Griffith. Even though it would have been a very large 
size. I mean, this is--this is what it looks like and it's just 
one of the precursors, and that's a picture of what they 
seized. That's a fairly significant amount of precursor when 
you realize it could be--back to my notes--19 million fentanyl 
tablets with a street value of $570 million. I would have 
thought you might remember that if you had been informed of it. 
I understand you don't. That's fine.
    In cases like this, do you believe sharing information 
would be helpful to law enforcement?
    Mr. Chester. Yes, and I will tell you that we have many, 
many, many mechanisms to be able to share information and 
intelligence information. In this particular case as a 
precursor chemical we do know a couple of things.
    The first 1 is the presence of a precursor chemical in the 
United States does not necessarily mean that there's synthesis 
going on nearby because precursor chemicals are shipped from 
the United States to other countries.
    And the second thing is about 2 months before that 
particular seizure, under United States leadership the 
international community placed controls on the two chemicals 
related to fentanyl synthesis--NPP, which was the one that was 
seized, and ANPP. So----
    Mr. Griffith. OK. In this case--let's see that picture 
again, if we could--on many of those boxes there are Chinese 
characters. It would indicate it did not come from the United 
States. It came in--the precursor came in from China to the 
United States.
    Mr. Chester. Absolutely, and it could be--although I don't 
know this, it could be that the individual was warehousing it 
for use, not turning it into someplace close by. We don't know.
    Mr. Griffith. OK. And here's my problem, and Mr. Donahue, I 
am going to ask you a question about whether or not your agency 
notified them. Here's my problem.
    If we found that precursor, it would seem to me you would 
want to at least check, see who the storage locker belonged to, 
do an investigation, and it would seem like to me there needed 
to be a lot of coordination.
    And as far as I know, that didn't happen.
    Mr. Donahue, do you know if your agency briefed other 
agencies and Mr. Chester's agency on this particular seizure of 
a large amount of precursor?
    Mr. Donahue. I appreciate the opportunity to respond to 
that. The case is currently under investigation. It's coming up 
to trial, which is a lot of times why stuff is not put out in 
the open due to the protections of the people testifying.
    We daily notify other agencies on seizures that are made. 
That specific seizure was work with state and locals as well. 
It's ongoing. It was built up, and it's still ongoing, and we 
do these daily--these types of investigations--at our 
international scale.
    So you mentioned the markings that are in Chinese. They go 
to our offices over in Beijing, which follow up on those 
companies, whether we can task a foreign country to do certain 
intel gathering for us to bring it back, to identify the source 
all the way back to where the seizure is made.
    So we do the follow up on those investigations. So 
sometimes they take a year, sometimes six months, sometimes two 
years because you're dealing with foreign countries.
    Mr. Griffith. We are already on two years and it doesn't 
look like we followed up.
    And, look, I think we need to just do a lot better job. Mr. 
Barksdale might have been liked to have known about that so he 
could check those addresses out.
    I think we do a better job if we are all working together 
and as President Reagan said, there's no limit to the amount of 
good you can do if you don't care who gets the credit.
    And I yield back.
    Ms. DeGette. The gentleman yields back.
    The Chair now recognizes the gentleman from New York, Mr. 
Tonko, for five minutes.
    Mr. Tonko. Thank you, Madam Chair.
    As others have stated today, the fentanyl threat is unlike 
any drug problem we have seen before and it is going to take 
the totality of the Federal Government's capabilities to fight 
it.
    Each of these agencies has unique skill sets. But they each 
only see a piece of this picture. We need them to actually come 
together and pool their resources, information, and expertise.
    Unfortunately, it does not appear that that's happening as 
much as it could. For example, committee staff visited CBP's 
National Target Center and saw how CBP is able to use 
algorithms to target shipments and packages likely to contain 
contraband.
    But that is only as good as the data that is fed into the 
system, and CBP does not receive all of the data it could from 
other agencies.
    So how do we get past this burden, Mr. Overacker? Why is 
this--why are we not getting the most that we can here? What is 
holding back the progress that we need to realize?
    Mr. Overacker. Well, I would say that, first of all, we do 
have good levels of collaboration. We do receive data that is 
required by regulation and then we fuse that data with other 
information to try to identify high risk.
    Mr. Tonko. But if I might, though--see, when we look at the 
National Target Center visit, they're saying it's not happening 
as well as it could.
    What is holding that back?
    Mr. Overacker. Well, there is room for improvement and I 
would just say that this is an example within the law 
enforcement community of where I believe that we need to have 
investigators get to a comfort level where they can share their 
case information with CBP, knowing that as law enforcement 
officers, ourselves, that we can protect those cases.
    But we can also use that information to advance those cases 
by basically giving them greater feedback and greater 
information.
    So I just think it's a question of education of the 
investigators in the field of what our capabilities are and 
what value we can add to their cases.
    Mr. Tonko. And what additional data would CBP like to 
receive from other agencies involved in this fight to feed into 
your targeting system?
    Mr. Overacker. Well, like I said, I think the case-specific 
information, that will allow us to pinpoint target and also 
provide meaningful interdictions for those agents in the field.
    Mr. Tonko. And, Mr. Donahue, I understand DEA frequently 
shares data with CBP on specific cases when DEA deems it 
appropriate. But what is stopping DEA from providing CBP with 
more data on an automatic ongoing routine basis?
    Mr. Donahue. We work with CBP daily down in Mexico City and 
various other countries. We are mandated by DOJ policy to 
provide all of our data into the Special Operations Division 
where there's over 38 foreign and domestic agencies, both 
state, local, and federal, that seize that data that can share 
it and CBP actually has officers stationed in the Special 
Operations Division, and we work a lot along the border with 
them passing information on seizures that we need them to make 
for our investigative purposes that we can use in a court of 
law in United States.
    So there's daily engagement.
    Mr. Tonko. Why then is CBP stating that they're not 
receiving all of the data that they need to?
    Mr. Donahue. You know, I don't--they're not tied in 
directly to SOD but they can see all of our data there because 
they have representatives stationed in the Special Operations 
Division that coordinate with all the other agencies there to 
include people out in the field and in foreign offices.
    Mr. Tonko. Well, let me give a specific example. If DEA 
executes a search warrant related to fentanyl and discovers 
packages containing fentanyl that include names and addresses, 
can that information automatically be sent to CBP for it to 
interdict all related shipments coming in?
    Mr. Donahue.  If they're working that investigation in 
conjunction with DEA, they would have it right then and there. 
We provide all that to our targeting over in SOD and they 
would, in turn, share it with the CBP officer there when they 
could give value add to that investigation to help identifying 
the people responsible for that seizure.
    Mr. Tonko. Well, Mr. Chester, this is one of ONDCP's 
essential missions, to make sure that these agencies are 
working together and sharing all of the information that they 
can. But, clearly, there is more that can be done in terms of 
ongoing information sharing and for there to be this 
proclamation by some of the groups saying we are not doing as 
well as we should. What are the roadblocks here?
    Mr. Chester. Clearly, there are roadblocks. There is always 
room for improvement in the ability----
    Mr. Tonko. But what are the roadblocks?
    Mr. Chester. I think some of them may be procedural. Some 
of them may be technical in nature, the ability for databases 
to speak with--to one another on a routine basis, and as those 
issues arise we absolutely are more than happy to work with the 
interagency to try and reduce them, as you pointed out.
    Mr. Tonko. But why can't we link up more of these data 
systems so that the agencies can help one another?
    Mr. Chester. Yes, sir. We would have to take a good close 
look at the reason why it's not happening and fix that problem. 
We absolutely will.
    Mr. Tonko. We have a crisis on our hands. Why are we not 
taking that closer look?
    Mr. Chester. Yes, sir.
    Mr. Tonko. We could look at it. Why aren't we?
    Mr. Chester. We absolutely will look at it. This particular 
case that you raise we absolutely will take a look at why the 
information is not routinely shared and we will reduce that 
barrier and make sure that that happens.
    Mr. Tonko. Madam Chair, I yield back.
    Ms. DeGette. The Chair now recognizes the gentle lady from 
Indiana, Mrs. Brooks, for five minutes.
    Mrs. Brooks.  Thank you, Madam Chairwoman, for holding this 
incredibly important hearing. I am really pleased that we are 
focusing in large part on law enforcement issues.
    I am a former U.S. attorney from '01 to '07, and so worked 
with all of your agencies. Was there when Homeland Security was 
stood up, and so just want to thank you all very, very much for 
your work.
    I think what the frustration is is we are trying to 
determine if there are any legal barriers, legal authorities, 
or anything that is keeping the agencies from sharing at the 
level that we all think you should be sharing at.
    And so my question is to any of you, and your counsels who 
might be here, are there any legal barriers that exist in law 
that are keeping you from sharing information?
    Discovery issues--is there anything? Mr. Donahue, anything 
you know of?
    Mr. Donahue. I think that depends on what the seizure is, 
if it's actually in judicial processes--is it actually 
protected information from other countries.
    But there is no legal, you know, policy or anything 
preventing us from sharing information. I could tell you what 
we've done in Mexico City in our offices. We have HSI agents 
and FBI agents sitting right in the office with DEA for that 
deconfliction purpose and for the immediate sharing of 
information.
    Mrs. Brooks. OK. And do any of the other agencies know of 
any legal reasons why our law enforcement agencies aren't 
sharing or can't share anything? Or is it just operational?
    Mr. Overacker. I am not aware of any legal restriction----
    Mrs. Brooks. OK.
    Mr. Overacker [continuing]. And I think our default 
position always should be we have an obligation to share.
    Mrs. Brooks. OK. And I assume--is that anything different?
    Mr. Prince. Again, yes, I am not aware of any legal 
prohibitions but I think that, you know, the size of some of 
these agencies--these are large enterprises that we are talking 
about.
    But a lot of these gaps are closed through deconfliction 
houses, case coordination such as OCDTF, HIDTA. A lot of these 
things I am sure you're very much aware of, and I think it's 
not--these aren't insurmountable issues. These are issues that 
we collaborate on daily----
    Mrs. Brooks. Right.
    Mr. Prince [continuing]. With respect to the international 
space----
    Mrs. Brooks. OK. Just wanted to make sure there were no 
legal impediments because actually Mr. Donahue talked about a 
legal impediment, which I've been very concerned about for a 
long time, and that's the encrypted phones, which we have not 
resolved, have we, Mr. Donahue?
    Mr. Donahue. No, we've been pending that issue for years 
now.
    Mrs. Brooks. OK. And could you very succinctly remind us 
all what that is?
    Mr. Donahue. So it's a law that's going to enable us to 
judicially intercept a device that's signed by a judge on a 
target that we can demonstrate is violating U.S. law.
    Mrs. Brooks. But then the encryption is what's keeping you 
from getting to the information in the phone. Is that correct?
    Mr. Donahue.  Correct. Certain companies don't cooperate--
aren't obligated to cooperate to give us the technology to 
intercept the encryption.
    Mrs. Brooks. OK. I want to talk about some of the 
technology challenges, and Mr. Prince, you talked about the 
dark web, and can you please share with us what--how it is that 
it's more of a law enforcement challenge than, you know, other 
issues that we've seen and whether the issues with cryptic 
currency, and I just read that Facebook is now contemplating a 
currency. Can you please talk with us about any successes or 
challenges you're having on the dark web?
    Mr. Prince. The successes are I mentioned in my oral 
testimony. The challenges are, obviously, with respect to 
crypto currency and that when we are looking at transactions 
that are occurring in the dark net and the dark net is largely 
where nefarious activities are occurring and transactions are 
happening.
    We don't necessarily know what these purchases and sales 
are unless or until we arrest an individual who is engaged in 
this criminal activity and perhaps commandeer their account, in 
which case we can see their entire wallet and what those 
transactions translate to.
    If we are looking at it from the outside in what we see is 
transactions that are occurring we can presume that those 
transactions are in fact criminal in nature because we are in 
the dark net space. But we don't know what they're selling, 
what they're buying.
    So those are some challenges. But we overcome those 
challenges through a variety of different techniques that I 
can't really get into here.
    Mrs. Brooks. Right.
    Mr. Prince. But, certainly, we do make an impact and we are 
making inroads in that space.
    Mrs. Brooks. And I would like to follow up on that further. 
But one thing that I know CBP mentioned but I would also like 
to ask you, Mr. Barksdale. Can we talk a little bit in my time 
that I have left about the Narcan availability for--I know it's 
at key facilities.
    Obviously, when we are dealing with fentanyl all the law 
enforcement--everyone who touches it it's of significant 
concern because it could kill.
    What percentage of postal and--I am curious, and I think 
we'll have to do this in written form to all the agencies--what 
percentage of your officers have access to Narcan?
    Mr. Barksdale. Well, first, as far as postal inspectors, 
every postal inspector has access to Narcan.
    Mrs. Brooks. OK. Good.
    Mr. Barksdale. Those on our drug teams has access to 
Narcan.
    On the operational side, all of our key facilities does 
have Narcan distributed to them, and that would include all of 
our process and in distribution centers and other large 
facilities.
    As far as the percentage of employees that covers, I will 
have to get back to you with an exact number.
    Mrs. Brooks. OK. And I will be submitting for--written 
questions about the availability of Narcan, the percentage of 
your employees that are all covered or have access to that 
because I think this is a serious issue for law enforcement.
    Thank you. I yield back.
    Ms. DeGette. The Chair now recognizes the gentleman from 
Massachusetts, Mr. Kennedy, for five minutes.
    Mr. Kennedy. Thank you, Madame Chair. Thank you for hosting 
this incredibly important hearing. Thank you for the witnesses 
to be here today and for your service to our country.
    A number of complexities that--and hot issues that been 
brought up over the course of the testimony today, and I 
appreciate your focus on that.
    I want to try to drill down on some of that, given that 
Congress has the opportunity to make some changes here and some 
investments here that I think are necessary, although we need 
to do that right.
    So, Mr. Overacker, you told us earlier that, quote, ``Most 
of the illicit fentanyl entering our country by weight does so 
at ports of entry along the Southwest border by private 
vehicles, pedestrian, and commercial vehicles,'' and that, 
quote, ``Fentanyl entering from the northern border does so by 
international mail packages and express consignment courier,'' 
end quote.
    So in your opinion, sir, would a border wall at a cost of 
up to $25 billion be the most effective way to stop fentanyl 
from arriving in our country through mail and ports of entry?
    Mr. Overacker. Let me just say that I think when we talk 
about border management you have to have a comprehensive 
approach. You know, most of what we encounter is at a port of 
entry and--but we are working with--working to change our 
concept of operations at these ports so we can increase the 
scanning rates, and when we increase those scanning rates I 
think it will have an impact on the patterns of crossing and if 
we deter these drugs----
    Mr. Kennedy. Understood.
    Mr. Overacker [continuing]. Deter them from coming to the 
ports they're going to go someplace else.
    Mr. Kennedy. Right. So I am going to interpret that based 
upon the phrasing in which you answered that question as a no, 
not the most effective way to spend the initial first $25 
billion.
    So if Congress was to appropriate $25 billion to the CBP to 
combat fentanyl trafficking, would you choose to spend that 
money on a border wall or, as you said, increase technology 
focused on screening cars and pedestrians at ports of entry and 
packages that are arriving through the mail?
    Mr. Overacker. Well, in the 2019 appropriation we received 
$570 million to improve our scanning capabilities at ports of 
entry----
    Mr. Kennedy. And given what you just said, we are not there 
yet in terms of trying to----
    Mr. Overacker. No, that's going to be a multi-year 
investment. But that's our first priority right there.
    Mr. Kennedy. Appreciate that, sir.
    Mr. Donahue, if given $25 billion by Congress, do you 
believe the most effective way to stop any arrival of illicit 
drugs to the United States is a border wall?
    Mr. Donahue. Again, collectively, with all different tools, 
can't say, you know, it won't help. I mean, I can't say it's 
the solution. But it would help. It's just another tool in our 
toolbox that we can actually filter certain threats to certain 
areas and we can focus on in personnel----
    Mr. Kennedy. So but the most--if you had $25 billion is the 
intervention that you would go with first a border wall?
    Mr. Donahue. It would just be part of our comprehensive 
plan on how we approach the issue.
    Mr. Kennedy. Sir, you touched on the importance of 
treatment and recovery options here in the United States as a 
way to reduce demand.
    Do you think that a $25 billion border wall would help us 
increase access to care in places like Massachusetts that would 
lead to reduced demand?
    Mr. Donahue.  I mean, again, that's part of our--we believe 
in the rehabilitation. We believe in the demand reduction and 
the enforcement, and the international focus on the sources of 
supply. So we----
    Mr. Kennedy. And so would that----
    Mr. Donahue [continuing]. We'd spread that money out, look 
at it collectively on the entire problem.
    Mr. Kennedy. And so that $25 billion could be spent on 
something like Medicaid, which is the largest payer of mental 
behavior health services in the country that accounts for more 
than 40 percent or nearly 40 percent of all adults with opioid 
addition in the country?
    Mr. Donahue. It would help that too, and our concern is to 
have less drugs and less flow into the United States, have less 
drugs addicts and less people dependent on those programs.
    Mr. Kennedy. And so if I am understanding your answer that 
that would help--expanding access to Medicaid would be a 
critically important part to ensuring that people get access to 
the treatment that's necessary.
    Mr. Donahue. The DEA doesn't run anything on--in Medicaid. 
We are targeting the cartels that are responsible for bringing 
the drugs into the country.
    Mr. Kennedy. Right. But as you said, if you're trying to 
reduce demand, getting people treated that are affected with 
addiction is probably part of that, no?
    Mr. Donahue.  Yes, it is.
    Mr. Kennedy.  OK.
    Mr. Chester, on multiple occasions the administration has 
opposed--has proposed gutting ONDCP by 95 percent. Do you 
believe that our response to this epidemic would be improved 
without a centralized agency tasked with leading that response?
    Mr. Chester. As the central EOP office for advancing the 
administration's drug control policy, ONDCP has been very 
effective in doing that role.
    Mr. Kennedy. Do you think cutting your budget by 95 percent 
would make you more effective or less effective?
    Mr. Chester. Well, clearly, cutting our budget by 95 
percent would make us less effective.
    But I will also tell you that the administration's support 
for ONDCP has been very strong and they've allowed us to do our 
jobs very, very well in this particular crisis over the last--
--
    Mr. Kennedy. Would you characterized the proposed cut by 95 
percent as being very strong support, sir?
    Mr. Chester.  The proposed cut by 95 percent was the 
inclusion of the other two programs that were very pricey. So 
it wasn't a--it wasn't 100 people from ONDCP became five 
people.
    But what I will tell you that the relationship that we have 
with the administration they have allowed us to be able to do 
our jobs at advancing the drug policy across the federal 
government.
    Mr. Kennedy. So why do you think they'd propose cutting 
your office by 95 percent?
    Mr. Chester. I think that these were all parts of budget 
discussions in the past but we are all very glad that ONDCP 
exists and continues to do its good work to this day.
    Mr. Kennedy. Me, too. Thank you.
    I yield back.
    Ms. DeGette. The Chair now recognizes the gentleman 
fromOklahoma, Mr. Mullin.
    Mr. Mullin. Thank you, Madam Chair.
    My questions are going to be for Mr. Donahue and Mr. 
Overacker, if you could both kind of answer when you can.
    How much fentanyl is coming directly from China?
    Mr. Overacker. So the fentanyl that comes directly from 
China typically we see that in mail or express, and I can tell 
you that----
    Mr. Mullin. How much? I mean, give me--like, how much have 
we--have we stopped? How much do we estimate is entering the 
country from China directly?
    Mr. Overacker. Well, the numbers have dropped precipitously 
this year.
    Mr. Mullin. OK.
    Mr. Overacker. So we are talking about only pounds of 
fentanyl----
    Mr. Mullin. Pounds?
    Mr. Overacker [continuing]. That we have encountered so far 
this year.
    Mr. Mullin. Mr. Donahue?
    Mr. Donahue.  We couldn't give you the exact number coming 
in because we only know what we know. We can give you our 
seizures numbers that----
    Mr. Mullin. Right. That's what I am looking for. How much 
have you seized?
    Mr. Donahue. So I will get those exact seizure numbers for 
you.
    Mr. Mullin. Thank you.
    Mr. Donahue. One thing we are looking for in China is 
actually the precursor chemicals coming from China actually 
utilized to produce more fentanyl.
    Mr. Mullin. How much is coming over our southern border 
that we are apprehending?
    Mr. Overacker. On the southern border, that's where, 
basically, most of what we are seeing----
    Mr. Mullin. Right.
    Mr. Overacker [continuing]. And I think this year we are 
tracking at over 1,800 pounds or----
    Mr. Mullin. Eighteen hundred pounds.
    Mr. Overacker [continuing]. Close to 2,000 so far. But this 
is not pure fentanyl. This is fentanyl that would be either----
    Mr. Mullin. It's laced. Right. I get it. Right.
    Mr. Overacker [continuing]. Yes, laced or cut or however 
you want to----
    Mr. Mullin. I get it. Mr. Donahue, would you agree with 
those numbers?
    Mr. Donahue. They seem accurate, and we see a lot going up 
through the corridor for Tijuana and Mexico.
    Mr. Mullin. Are we grabbing most of that at the port of 
entry?
    Mr. Overacker. Absolutely. Ninety percent of our seizures 
occur at a port of entry.
    Mr. Mullin. And if I am--if I am not mistaken we are only 
inspecting, roughly, 20 percent of the--of the vehicles. We are 
only able to inspect 20 percent of the vehicles coming across 
the port of entry. Is that correct?
    Mr. Overacker. Well, currently, our scanning rates for 
privately-owned vehicles coming across the southern border are 
around two percent and it's, roughly, 16 percent for commercial 
vehicles, and that's really a function of the volume of what's 
crossing. We have----
    Mr. Mullin. Well, the point I am trying to get to is my 
colleague that was before me was bringing up the $25 billion 
for the southern border for building the wall, and underneath 
the president's proposal he also designated a significant 
amount of money for the port of entry to scan 100 percent of 
the vehicles as they was driving through because right now we 
are only inspecting, roughly, 20 percent and we are already 
catching the largest amount but through the port of entry.
    To get back to what my colleague was referring to, would 
the wall work. Well, what the wall would do is draw more people 
to that port of entry. Is that not correct? If the wall is 
there, then they would have to look for a more--a different 
avenue to be able to enter the country through, which would be 
the legal point of entries.
    Mr. Donahue, would you like to respond to that?
    Mr. Donahue. We do a lot of great work with CBP and passing 
information when we can drive people or operations that we do 
at the port of entry where we can focus on cars and trucks.
     Mr. Mullin. It's to funnel them there to a certain point.
    Mr. Donahue. Yes.
    Mr. Mullin. So would the wall help funnel that?
    Mr. Donahue. Absolutely would.
    Mr. Mullin. Mr. Overacker, would you agree with that?
    Mr. Overacker. I would say that the port of entry is a 
controlled place.
    Mr. Mullin. Sure. Where the--where the open border isn't, 
correct?
    Mr. Overacker. And so because it's a controlled place and 
we have better opportunities to interdict.
    Mr. Mullin. OK. So my point that I am trying to drive home 
here is there's not just one thing that's going to solve this 
problem.
    But the amount that we can keep from flowing over our 
southern border, which is where the majority of the drugs are 
coming from--if we can get a better control on that and 
designate dollars specifically for those and make our southern 
border a harder target rather than right now being an easy 
target because, as we all know, the easy target is an 
opportunity for success and a harder target most criminals 
aren't going to attack.
    If we are able to make it a hard target, would that help us 
with combatting the overdoses that are taking place and the 
addiction issues that are taking place here inside the United 
States?
    Mr. Donahue. We look at all tools because, you know, we are 
speaking about fentanyl today and we are concerned with the 
enormous amount of methamphetamine that's being produced that's 
coming up----
    Mr. Mullin. Right.
    Mr. Donahue [continuing]. The enormous amount of cocaine 
and the heroin as well, which are bulky to bring in that they 
need big trucks to do it.
    So we are looking at every tool possible to identify and 
disrupt and seize those drugs that are coming in.
    Mr. Mullin. With the amount of human trafficking that's 
going on in our southern border right now--the overflow that's 
taking place--is it distracting your mission from being able 
to--being able to look directly to drug trafficking or you have 
to spend resources to the human trafficking side of it, too?
    Mr. Overacker, you want to----
    Mr. Overacker. Well, there's no question that the current 
conditions on the Southwest border have caused us to have to 
shift, you know, our personnel. So it does have some impact. 
There's no question about that.
    Mr. Mullin. See, what I am thinking is that the cartels are 
purposely flooding our southern border so that the drug routes 
can be easily accessed because they know that we having to put 
resources to the human trafficking crisis that's taking place 
and the humanitarian that's taking place.
    So the wall, to which my colleague brought up, is to help 
all the above picture, not just one single issue.
    With that, I will yield back.
    Ms. DeGette. The gentleman yields back.
    The Chair now recognizes Mr. Duncan for five minutes.
    Mr. Duncan. Thank you, Madam Chairwoman, and thanks for 
holding this hearing.
    I sat here a long time listening because I am concerned 
about the 28,000 deaths in the United States from synthetic 
opioids like fentanyl.
    And my colleague made a great point just now that cartels 
are going to exploit weaknesses or crises to get their product 
across. I think they are. I think walls do work and I think 
they create corridors that our law enforcement can better 
utilize the resources we give them within those corridors to 
stop the bad guys from wanting to bring these horrendous drugs 
into our cities and killing our fellow Americans.
    I've been sitting here and for--sat here for several hours 
listening to all the other questions. One of the benefits or 
challenges being last is all the groovy questions have been 
asked.
    You all have been great to answer those questions. I want 
to give you a chance to tell us what more we can do in 
Congress. We passed the SUPPORT Act last year, the SUPPORT for 
Patients and Communities Act. I want to see the implementation 
of that.
    But what I would like to do is just ask Mr. Overacker first 
what can we do in Congress to help keep our law enforcement 
officers best positioned to continue infiltrating the supply 
chain. What more can we do?
    Mr. Overacker. Thank you for that, Congressman.
    First of all, I would just like to say that we are very 
fortunate that Congress has supported us most generously over 
the last two budgets with respect to our detection 
capabilities, and so we are grateful for that, and we know we 
have a multi-year effort to improve our scanning capabilities 
on the Southwest border but also throughout CBP.
    We are also grateful for the continued support we've 
received with respect to improving our laboratory capabilities 
and also appropriations for improving our facilities.
    That's an important part, particularly what we are doing 
now to improve the international mail facilities where we 
process mail with the U.S. Postal Service.
    So that continued support is most helpful for us. So that's 
what I would say, just thank you for the support we've received 
so far.
    Mr. Duncan. Let me ask Mr. Donahue from the DEA standpoint. 
What can we do to help you disrupt the distribution process of 
opioids and what more can we do?
    Mr. Donahue. I think having hearings and meetings like this 
and keeping it to the forefront is really important, and 
inviting DEA to these meetings. We bring something specific to 
the table.
    We have extraordinary amount of resources in our overseas 
offices which is where the drugs come from--the cocaine, the 
methamphetamine, the heroin, the fentanyl. It all comes from 
international and other countries.
    So bringing this to the forefront I think is really 
important for the DEA and letting our message get out there, 
and I think having the youth and other people seeing the damage 
of the drugs that are coming in from a foreign country, just 
the damage to our cultures and our communities. It's really 
important not to do it every six months but to do it daily.
    Mr. Duncan. I've got a--my best friend from college is a 
doctor and we talked about fentanyl just this week, and we were 
talking about the smuggling efforts.
    And as you guys become more and more effective, my concern 
is the very potent fentanyl could be put into food supplies as 
part of the smuggling effort in containers and contaminate food 
supply that ultimately gets in.
    Not talking about drug users that are looking for that 
stronger high. I am talking about fentanyl get into an area 
where it contaminates food or liquids that ultimately end up on 
the digestives systems of just average Americans, and then we 
have a lot of other innocent deaths.
    I want to ask Mr. Prince with HSI--you know, as containers 
are being brought in, I know HSI is doing a great job overseas. 
Is that a reality that we should think about is fentanyl 
contaminating any other sort of food supply or liquids that are 
coming into this country?
    Mr. Prince. I think it's an abstract thought that I have 
that I will share but, you know, lack of imagination is 
something that we shouldn't have when it comes to fentanyl in 
the same sense that when you think about 9/11 and how that 
happened.
    So we should have an imagination about the various ways 
that fentanyl can be introduced into the United States as we 
put pressure on organizations. We should be creative. We should 
continue to leverage tools that we have. We should continue to 
create new tools and expand our aperture within the cyber 
space.
    And don't forget about our, as I mentioned earlier, our 
analog tool sets that allow us to also be effective.
    Mr. Duncan. Madam Chairwoman, before I came to this 
committee I was on the Homeland Security, and I was on the 
Border and Customs Border Patrol--Border and Maritime 
Subcommittee.
    We went to the ports and we looked at container security, 
and we looked at the screen for radioactive devices. We looked 
at what drug smugglers have done.
    But fentanyl being put on containers it's going to be very 
difficult for these guys to detect. That's something we ought 
to consider in future hearings.
    And with that, I yield back.
    Ms. DeGette. The gentleman is right. Fentanyl is really 
difficult to detect and that's 1 of the real dangers.
    I want to thank all of the witnesses for coming today. Your 
participation has been very informative and helpful.
    I do have a document that Ms. Schakowsky asked me to enter 
into the record. It's an article from the International Journal 
of Drug Policy and I would ask unanimous consent. So ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. I can assure all of you, and everyone in the 
audience, this committee does intend to stay on this issue. 
This has been a multi-year process, a bipartisan process, and 
we intend to continue to look quite closely at it, because it 
is really a national crisis.
    And I want to thank all of our witnesses for recognizing it 
as such and for increasing your cooperation between your 
agencies.
    I also want to remind Members that pursuant to committee 
rules they have 10 business days to submit additional questions 
for the record to be answered by witnesses who have appeared 
before the subcommittee.
    I would just ask if all of our witnesses would agree to 
respond promptly to any such questions if you receive any. I 
think you will be getting some from Mrs. Brooks, for example.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 12:06 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared Statement of Hon. Annie Kuster

    We have seen the opioid crisis evolve and take many 
different forms. No community in this country has been spared, 
but New England and New Hampshire in particular have been 
devastated by this crisis.
    That is why it is imperative that we anticipate how the 
fentanyl crisis will continue to evolve. We need to get ahead 
of this ever-changing threat, so we are not caught flat-footed.
    As I look at the witness panel, I am struck by their 
diverse missions. It is not every day that we have a hearing 
with the U.S. Postal Service and the DEA on the same witness 
panel.
    We need a national strategy on our fentanyl response. And I 
don't just mean a white paper document or a task force report. 
I mean we need a coherent, practical plan for how we are going 
to beat this problem.
    For example, the Office of National Drug Control Policy 
(ONDCP) is supposed to formulate a strategy, bring all the 
agencies together, and see to it that the strategy is 
implemented effectively.
    DEA, you are on the front lines and often develop important 
leads for targeting drugs. And FDA is suddenly in the middle of 
this fight because fentanyl is increasingly being mixed with 
other drugs, including counterfeit prescription drugs.
    These are just a few of the issues we will explore today. 
If we are going to solve this problem, we need better 
cooperation across agencies, and we need to think differently 
than we have on past drug epidemics.
    Finally, this hearing is just one piece of our oversight. 
This Subcommittee will stay on this issue and ensure progress 
is being made so that we are not back here again next year 
talking about the same problems.
    I thank the witnesses for their service on this critical 
issue, and for being here today.
    I yield back.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
